No. 19IN THE

Supreme Court of the United States
PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,
Petitioners,
v.
STATE OF WASHINGTON,
Respondent.
On Petition for Writ of Certiorari to the
Supreme Court of Washington
PETITION FOR A WRIT OF CERTIORARI
JONAH O. HARRISON
ARÊTE LAW GROUP PLLC
1218 Third Ave.
Suite 2100
Seattle, WA 98101
(206) 428-3250
SUMEER SINGLA*
DANIEL A. BROWN*
HUNTER M. ABELL*
WILLIAMS KASTNER &
GIBBS, PLLC
601 Union St.
Suite 4100
Seattle, WA 98101
(206) 628-6600

*Admission pending

L. LAWRENCE LESSIG
Counsel of Record
JASON HARROW
EQUAL CITIZENS
12 Eliot Street
Cambridge, MA 02138
(617) 496-1124
lessig@law.harvard.edu

Attorneys for Petitioners

i
QUESTION PRESENTED
A Washington State law threatens a fine for
presidential electors who vote contrary to how the law
directs. RCW 29A.56.340 (2016). Petitioners are three
2016 presidential electors who were fined under this
provision solely because they failed to vote as the law
directs, namely for the presidential and vicepresidential candidates who won a majority of the
popular vote in the State.
The question presented is whether enforcement of
this law is unconstitutional because:
(1) a State has no power to legally enforce how a
presidential elector casts his or her ballot; and
(2) a State penalizing an elector for exercising his
or her constitutional discretion to vote violates
the First Amendment.

ii
PARTIES TO THE PROCEEDINGS
All parties to the proceedings are named in the
caption.

iii
TABLE OF CONTENTS
QUESTION PRESENTED ............................................ i
PARTIES TO THE PROCEEDINGS ...........................ii
TABLE OF CONTENTS ............................................ iii
TABLE OF AUTHORITIES ........................................ vi
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW ..................................................... 1
JURISDICTION ........................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ............................... 2
INTRODUCTION ......................................................... 3
STATEMENT OF THE CASE ..................................... 6
I.

II.

Legal Background .............................................. 6
A.

The selection of electors .......................... 6

B.

Casting and counting electoral votes ..... 7

This Case ............................................................ 9
A.

Petitioners are nominated as electors
and perform their duties under the
Constitution. ........................................... 9

B.

Petitioners are fined because of their
votes and appeal the fines. ................... 11

C.

iv
The Washington Supreme Court hears
the case on direct appeal. ..................... 11

D.

The Tenth Circuit disagrees in Baca ... 13

REASONS FOR GRANTING THE WRIT ................. 14
I.

II.

III.

The Decision Below Directly Conflicts With A
Recent Decision Of The Tenth Circuit. ........... 14
A.

The reasoning and conclusions of the
Washington Supreme Court and Tenth
Circuit are irreconcilable. ..................... 15

B.

The two recent cases reflect both sides of
a pre-existing split. ............................... 20

C.

This appeal and Baca are not legally
distinguishable. ..................................... 22

The Question Presented Is Exceptionally
Important And Warrants Review In This
Particular Case. ............................................... 25
A.

This issue is exceptionally important
because its ultimate resolution would
make clear the rules for the Electoral
College before a contested presidential
election................................................... 25

B.

This case is the best possible vehicle to
resolve this issue. .................................. 29

The Decision Below Is Incorrect. .................... 30

CONCLUSION ........................................................... 35
APPENDIX
App. A (Supreme Court of Washington) .................... 1a

v
App. B (Trial Court Oral Decision) .......................... 30a
App. C (Trial Court Order)....................................... 33a
App. D (Administrative Order) ................................ 36a
App. E (Constitutional Provisions) .......................... 44a
App. F (Statutory Provisions) .................................. 51a

vi
TABLE OF AUTHORITIES
CASES
Baca v. Colorado Dep’t of State, 935 F.3d 887
(10th Cir. 2019) ............................................ passim
Baca v. Hickenlooper, U.S. App. LEXIS 23391
(10th Cir. Dec. 16, 2016) ................................ 20, 22
Breidenthal v. Edwards, 57 Kan. 332 (1896) ......... 21
Burroughs v. United States, 290 U.S. 534
(1934) .......................................................... 6, 16, 30
Bush v. Gore, 531 U.S. 98 (2000) ........................ 4, 16
Clarke v. United States, 886 F.2d 404 (D.C.
Cir. 1989) .............................................................. 33
Gelineau v. Johnson, 904 F. Supp. 2d 742
(W.D. Mich. 2012) ................................................ 21
Goodyear Atomic Corp. v. Miller, 486 U.S.
174 (1988). ............................................................ 31
Koller v. Brown, 224 F. Supp. 3d 871 (N.D.
Cal. 2016)........................................................ 20, 27
McCulloch v. Maryland, 17 U.S. (4 Wheat.)
316 (1819) ............................................................. 23
McPherson v. Blacker, 146 U.S. 1 (1892) .................. 6
Nevada Commission on Ethics v. Carrigan,
564 U.S. 117 (2011) .............................................. 33

vii
Op. of the Justices, 250 Ala. 399 (1948) .................. 20
Powell v. McCormack, 395 U.S. 486 (1969) ............ 33
Ray v. Blair, 343 U.S. 230 (1952) ................... passim
Sherbert v. Verner, 374 U.S. 398 (1963) ................. 24
State ex rel. Beck v. Hummel, 150 Ohio St.
127 (1948) ............................................................. 21
State ex rel. Neb. Republican State Cent.
Comm. v. Wait, 138 N.W. 159 (Neb. 1912) ......... 21
Thomas v. Cohen, 262 N.Y.S. 320 (Sup. Ct.
1933) ..................................................................... 21
U.S. Term Limits, Inc. v. Thornton, 514 U.S.
779 (1995) ............................................................. 33
Williams v. Rhodes, 393 US 23 (1968)...................... 6
STATUTES
2019 Wa. S.B. 5074 ................................................ 6, 7
3 U.S.C. § 11............................................................... 8
3 U.S.C. § 12......................................................... 8, 31
3 U.S.C. § 15............................................................... 9
3 U.S.C. § 17............................................................... 9
3 U.S.C. § 6................................................................. 8
3 U.S.C. § 7........................................................... 7, 10

viii
3 U.S.C. § 8........................................................... 8, 10
3 U.S.C. § 9........................................................... 8, 31
RCW 29A.56.310 ........................................................ 6
RCW 29A.56.340 .............................................i, 10, 11
RULES
Supreme Court Rule 10(a) ...................................... 14
BOOKS AND ARTICLES
Saul Levmore, Precommitment Politics, 82
VA. L. REV. 567 (1996). ......................................... 32
William H. Rehnquist, Centennial Crisis: The
Disputed Election of 1876 (2004) ................... 26, 27
CONSTITUTIONAL PROVISIONS
U.S. CONST. amd. XII............................................. 6, 7
U.S. CONST. art. II ..................................................... 6
OTHER AUTHORITIES
115 Cong. Rec. 246..................................................... 9
163 Cong. Rec. H185–89.......................................... 11
2018 Cal. SB 27........................................................ 28
A. 1230, Statement, 218th Leg., Reg. Sess.
(N.J. 2018) ............................................................ 28

ix
FairVote, “Faithless Electors,” at
https://perma.cc/CL6W-HGQ5 ..................... 4, 9, 27
FairVote, “State Laws Binding Electors,” at
http://bit.ly/StateBindingLaws ........................ 7, 25
S. 26, § 3, Assemb. Reg. Sess. 2017-2018
(N.Y. 2017) ............................................................ 28
Veto Message on S.B. 149 from Gov. Jerry
Brown to Members of the California State
Senate (Oct. 15, 2017) .......................................... 28

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Peter Bret Chiafalo, Levi Jennet
Guerra, and Esther Virginia John respectfully petition
this Court for a writ of certiorari to review the
judgment of the Supreme Court of Washington.
OPINIONS BELOW
The opinion of the Supreme Court of Washington is
available at 193 Wash. 2d 380 (2019) and is reproduced
in the Appendix at App. A.
The oral decision of the Washington Superior Court
is unpublished and is reproduced in the Appendix at
App. B. An accompanying Order is reproduced in the
Appendix at App. C.
The administrative order imposing the fines on
Petitioners is unpublished and is reproduced in the
Appendix at App. D.
JURISDICTION
The decision and judgment of the Washington
Supreme Court was entered on May 23, 2019. On
August 5, 2019, Justice Kagan granted an extension of
time to file this Petition to October 20, 2019 (No.
19A138). This Court’s jurisdiction is invoked under 28
U.S.C. 1257(a).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Article II of the U.S. Constitution provides in
relevant part that “[e]ach State shall appoint, in such
manner as the Legislature thereof may direct, a
number of electors, equal to the whole number of
Senators and Representatives to which the State may
be entitled in the Congress.”
The Twelfth Amendment provides in relevant part
that “The Electors shall meet in their respective states
and vote by ballot for President and VicePresident . . . ; they shall name in their ballots the
person voted for as President, and in distinct ballots
the person voted for as Vice-President, and they shall
make distinct lists of all persons voted for as
President, and of all persons voted for as VicePresident, and of the number of votes for each, which
lists they shall sign and certify, and transmit sealed to
the seat of the government of the United States.”
RCW 29A.56.340 (2016) provides in relevant part
that “[a]ny elector who votes for a person or persons
not nominated by the party of which he or she is an
elector is subject to a civil penalty of up to one
thousand dollars.”
Additional relevant constitutional and statutory
provisions are reproduced in the Appendix.

3
INTRODUCTION
This petition presents a clear split in authority
between state and federal courts on a critically
important question of federal constitutional law:
whether, after appointment, a state may by law direct
how presidential electors cast their votes for President
and Vice President, and enforce that direction through
legal penalties. This petition presents this unresolved
question cleanly and in a context where resolution of
the question would not directly affect the outcome of a
presidential election.
The Washington Supreme Court held that states
have the power to direct how electors perform their
duties after appointment, and that the State may
enforce that power through a fine. Petitioners believe
that the fines in this case are the very first imposed on
any presidential elector in the history of the Republic.
Yet Petitioners are not the first electors to cast their
ballots independently. Indeed, from the birth of the
Republic, electors have cast their ballots contrary to
legislative direction or expectation without penalty or
legal consequence.
Just two months after the Washington Supreme
Court’s decision, the Tenth Circuit reached the exact
opposite conclusion in another case involving 2016
presidential electors. Contrary to the Washington
Supreme Court’s decision below, the Tenth Circuit
held that “Article II and the Twelfth Amendment
provide presidential electors the right to cast a vote for
President and Vice President with discretion.” Baca v.
Colorado Dep’t of State, 935 F.3d 887, 955 (10th Cir.
2019). Unlike the Washington Supreme Court, which
authorized a state’s unprecedented restriction of
elector
freedom,
the
Tenth
Circuit
found

4
unconstitutional Colorado’s attempt to control the vote
of its electors.
This Court should resolve this conflict now, before
it arises within the context of a contested election. In
the most recent presidential election, ten of the 538
presidential electors either cast presidential votes for
candidates other than the nominees of their party,1 or
attempted to do so and were replaced with other
electors on the day of voting.2 A swing by that same
number of electors would have changed the results in
five of fifty-eight prior presidential elections. And as
the demographics of the United States indicate that
contests will become even closer, there is a significant
probability that such swings could force this Court to
resolve the question of electoral freedom within the
context of an ongoing contest.
The Supreme Court should avoid that dangerous
possibility. This case gives the Court the rare
opportunity to decide a constitutional question related
to presidential selection in a non-emergency setting. In
contrast to this Court’s most recent encounters with
the law of presidential electors, such as Ray v. Blair,
343 U.S. 230 (1952), and Bush v. Gore, 531 U.S. 98
(2000)—both of which were decided in mere days, by
necessity—this appeal would give the Court ample
time to consider important evidence from the
Founding and across the Nation’s history. And this
case permits the Court to issue a decision outside of
1 They were the three electors in this case, another
Washington elector, a Democratic elector in Hawaii, and two
Republican electors in Texas. See FairVote, “Faithless Electors,”
at https://perma.cc/CL6W-HGQ5.
2 They were Democratic electors in Colorado, Maine, and
Minnesota. See id.

5
the white-hot scrutiny of a contested presidential
election.
There is no reason to allow this direct split to
linger. No other court could resolve this question
before the next election. This Court would therefore
gain nothing from waiting to grant a case on this issue
and letting the split stand—but the consequences of
delay could be severe.
On the merits, the Washington Supreme Court is
mistaken. As the Tenth Circuit correctly held, the
original text of the Constitution, as amended by the
Twelfth Amendment, secures to “electors” the freedom
to vote as they choose. Likewise, the structure of the
Constitution, as interpreted by this Court over our
230-year history, prohibits the states from interfering
with the exercise of this plainly federal function. The
decision below should be reversed.
Finally, although it may be appropriate to grant
certiorari in both this case and the Tenth Circuit’s
Baca case (if requested), this petition unquestionably
presents the Court with an appropriate vehicle to
resolving this question. Whether or not both cases
should be granted, certainly the instant case should.

6
STATEMENT OF THE CASE
I. Legal Background
A. The selection of electors
The Constitution does not provide for direct
election of the President and Vice President by the
people. Instead, each State “appoint[s]” a number of
presidential electors equal to the total number of the
State’s Members of the House and Senate. U.S. CONST.
art. II, § 1; U.S. CONST. amd. XII. While a state’s power
over elector appointment is “plenary,” McPherson v.
Blacker, 146 U.S. 1, 35 (1892), that power is also
constrained by other constitutional provisions, see
Williams v. Rhodes, 393 US 23, 29 (1968). And once
appointed, presidential electors “exercise federal
functions under, and discharge duties in virtue of
authority conferred by, the Constitution of the United
States.” Burroughs v. United States, 290 U.S. 534, 545
(1934) (emphasis added).
Washington, like 47 other states and the District of
Columbia, appoints a slate of presidential electors
from the political party of the candidates for President
and Vice President that receive the most popular votes
in the State.3 See RCW 29A.56.310 et seq. (2016).4 Once
Maine and Nebraska use a hybrid system under which they
award one elector to the popular vote winner of each
congressional district in the state and two electors to the
statewide winner.
4 Several of the state-law provisions at issue here were
amended in 2019; thus, all Washington state statutory references
are to the versions in effect in 2016. See 2019 Wa. S.B. 5074
(enacted Apr. 26, 2019). Those amendments do not affect the fines
levied here and thus do not affect this Court’s jurisdiction in any
way. In fact, the amendments are an attempt by the State to exert
3

7
appointed, electors meet in the respective states “on
the first Monday after the second Wednesday in
December next following their appointment,” which, in
the most recent election, was December 19, 2016. 3
U.S.C. § 7.
B. Casting and counting electoral votes
When the electors meet around the country at the
appointed time, the Twelfth Amendment directs how
presidential electors are to cast, tabulate, and
transmit their votes.
In particular, the Amendment requires electors to
“name in their ballots the person voted for as
President, and in distinct ballots the person for as
Vice-President.” U.S. CONST. amd. XII. The electors
themselves are then required to “make distinct lists”
of the “persons voted for as President” and “VicePresident,” to which the electors then add the “number
of votes for each.” Id. The electors then “sign and
certify” the lists and “transmit” them “sealed to the
seat of the government of the United States, directed
to the President of the Senate.” Id. The President of
the Senate is then required to open and count all of the
certificates in the presence of the House and the
Senate. Id.
more control over the votes of presidential electors than it had in
2016, not less, because the amendments purport to allow the
State to remove an elector who does not cast a ballot for the ticket
that the electors are expected to support. See Wa. SB 5074 § 7 (to
be codified at RCW 29A.56.___). Thus, a decision in this case
would determine the constitutionality of both the 2016 law and
the revised law, as well as similar laws in over half the states that
purport to dictate the votes of electors in one way or another. See
FairVote,
“State
Laws
Binding
Electors,”
at
http://bit.ly/StateBindingLaws.

8
Federal statutory law mirrors the Twelfth
Amendment. First, “as soon as practicable after the
conclusion of the appointment of the electors,” state
executives must tell the Archivist of the United States
who the electors are. 3 U.S.C. § 6. Next, at the
appropriate place and time, the law requires
presidential electors to vote “in the manner directed by
the Constitution,” id. § 8, and then adds additional
detail to what must occur after the electors vote. In
particular, federal law provides that the “electors shall
make and sign six certificates of all the votes given by
them.” Id. § 9. As in the Twelfth Amendment, the
electors themselves are then required to certify their
own vote, seal up the certificates, and send one copy to
the President of the Senate; two copies to the Secretary
of State of their state; two copies to the Archivist of the
United States; and one copy to a judge in the district
in which the electors voted, id. § 11. The “executive of
the State” is to furnish to the electors a list of electors
that must be attached to their certificates of vote. Id.
§ 9. The only active role mentioned for a state’s
Secretary of State is to transmit to the federal
government one of the Secretary’s copies of the
certificate of vote. Even that role, however, is only
conditional: only if the electors themselves fail to send
a copy and a federal official requests a copy does the
Secretary of State then have a role to play. Id. § 12.
Thus, in the ordinary case, the appointment of
electors is “conclu[ded]” well before the electoral vote,
3 U.S.C. § 6, and neither the Constitution nor federal
law envision any role for any state official during the
balloting by electors. There is no mechanism for state
officials to monitor, control, or dictate electoral votes.
Instead, the right to vote in the Constitution and

9
federal law is personal to the electors, and it is
supervised by the electors themselves.
The final step in the formal process of presidential
election occurs on January 6 following each
presidential election. On that day, Congress assembles
in a joint session to open the certificates and count the
electoral votes. Id. § 15. If an electoral vote is
questioned, members of each House can initiate a
formal debate and then vote on the validity of any
electoral vote. Id.
A formal challenge to an independent electoral vote
has been debated only once in the Nation’s history, in
1969. In that instance, Congress decided that the
anomalous vote for George Wallace, rather than
Richard Nixon, should be counted, even though the
elector was a Republican elector. See 115 Cong. Rec.
246 (Senate vote of 58-33 to count the electoral vote);
id. at 170–71 (House vote of 228-170). In fact, Congress
has accepted the vote of every vote contrary to a pledge
or expectation in the Nation’s history that has been
transmitted to it—a total of more than 150 votes across
twenty different elections from 1796 to 2016. See
FairVote,
“Faithless
Electors,”
at
https://perma.cc/CL6W-HGQ5.
II. This Case
A. Petitioners are nominated as electors and
perform their duties under the
Constitution.
In the summer of 2016, Petitioners Peter Bret
Chiafalo, Levi Jennet Guerra, and Esther Virginia
John were nominated as presidential electors for the
Washington Democratic Party for the 2016
Presidential Election. App. 3a. On November 8, 2016,

10
Hillary Clinton and Tim Kaine, the Democratic
nominees for President and Vice President, received
the most popular votes in the State, which meant that
Petitioners and their fellow Democratic electors were
appointed to serve as Presidential Electors for the
State of Washington. App. 3a.
On December 19, 2016, presidential electors across
the country met in their respective states to cast their
electoral votes for President and Vice President. See 3
U.S.C. § 7 (setting day for meeting of presidential
electors). Washington’s presidential electors met in
the state capital, Olympia.
State law instructs Washington’s presidential
electors to “perform the duties required of them by the
Constitution and laws of the United States.” RCW
29A.56.340; see also 3 U.S.C. § 8 (elector voting must
occur “in the manner directed by the Constitution”).
Nonetheless, despite this recognition that electors
perform a federal duty, Washington law also attempts
to control the electors’ votes. Specifically, State law
provided that “[a]ny elector who votes for a person or
persons not nominated by the party of which he or she
is an elector is subject to a civil penalty of up to one
thousand dollars.”5 RCW 29A.56.340.
Although each Washington presidential elector
was a member of the Democratic Party, Petitioners did
not vote for the nominee of their party. Instead, each
Petitioner voted for Colin Powell for President, and for
Maria Cantwell (Guerra), Susan Collins (John), or
5 In connection with their nomination as electors, each
Petitioner had also previously been required to sign and file with
the Secretary of State a pledge to cast an electoral vote for the
nominees of the Democratic Party. App. 2a & n.1.

11
Elizabeth Warren (Chiafalo) for Vice President. App.
4a, 39a. The State transmitted these votes to
Congress, which accepted Petitioners’ votes in the
official tally of electoral votes. 163 Cong. Rec. H185–
90 (daily ed. Jan. 6, 2017) (counting and certifying
election results).
B. Petitioners are fined because of their
votes and appeal the fines.
On December 29, 2016, the Washington Secretary
of State fined Petitioners $1,000 each under RCW
29A.56.340 for failing to vote for the nominee of their
party. Petitioners understand this to be the first time
in U.S. history that a state has fined a presidential
elector for an elector’s failure to vote as state law
required.
Petitioners
appealed
their
fines
to
an
Administrative Law Judge and argued the fines were
unconstitutional. The ALJ was without power to
consider the constitutional objection, and accordingly
upheld the imposition of the fine. App. 41a–43a.
Petitioners then appealed the administrative
determination to the State Superior Court. The
Superior Court held an oral argument during which it
recognized the importance of the constitutional issues
presented by this case, but the court ultimately issued
a brief oral decision rejecting Petitioners’ appeal. App.
30a–32a.
C. The Washington Supreme Court hears the
case on direct appeal.
Following
the
Superior
Court’s
decision,
Petitioners requested that the Washington Supreme
Court hear the case directly. Due to the importance of

12
the issue, the State agreed that the State Supreme
Court should accept the case on direct review. On
direct review, the Washington Supreme Court
affirmed the Superior Court and upheld the issuance
of the fines in an 8-1 opinion issued on May 23, 2019.
The majority “acknowledge[d] that some framers
had intended the Electoral College electors to exercise
independent judgment.” App. 22a. But the court
argued that nothing in the Constitution “suggests that
electors have discretion to cast their votes without
limitation or restriction by the state legislature.” App.
19a. It instead found the state’s power to appoint
electors under Article II, as interpreted by Ray v.
Blair, was sufficiently broad that the appointment
power could also be invoked to “impose a fine on
electors for failing to uphold their pledge.” App. 20a.
The court recognized that, constitutionally,
presidential electors perform a “federal function” that
may be insulated from state interference, but argued
that “the Constitution explicitly confers broad
authority on the states to dictate the manner and
mode of appointing presidential electors.” App. 19a.
And the Court reasoned that “nothing in article II,
section 1 [of the Constitution] suggests that electors
have discretion to cast their votes without limitation
or restriction by the state legislature.” App. 19a.
Finally, the majority rejected Petitioners’
argument that the State’s interference violated the
First Amendment. The court contended that “electors
act by authority of the State,” and so Petitioners had
no expressive rights to assert. App. 26a.
Justice Steven C. González dissented. Quoting an
unchallenged historical statement from Justice

13
Jackson’s dissenting opinion in Ray, Justice González
said “‘[n]o one faithful to our history can deny that the
plan originally contemplated, what is implicit in its
text, that electors would be free agents, to exercise an
independent and nonpartisan judgment as to the
[individuals] best qualified for the Nation’s highest
offices.’” App. 28a–29a (quoting 343 U.S. at 232
(Jackson, J., dissenting)). He then observed that there
is a “meaningful difference between the power to
appoint and the power to control,” and a state has only
the former power under the Constitution. App. 29a.
This “leav[es] the electors with the discretion to vote
their conscience.” App. 29a.
D. The Tenth Circuit disagrees in Baca.
While the Washington courts were considering this
case, litigation presenting the identical issue was
proceeding in federal district court in Colorado and
then the Tenth Circuit. The other case arose from
Colorado’s separate attempt to control the electoral
votes of its 2016 electors—in particular, the Colorado
Secretary of State’s discarding of an electoral vote cast
for John Kasich by an elector nominated by the
Democratic Party and expected to vote for Hillary
Clinton.
Less than two months after the Washington
Supreme Court in this case held that “nothing in the
[Constitution] suggests that electors have discretion”
in casting their votes for President and Vice President,
App. 19a, the Tenth Circuit reached the opposite
conclusion and found that the electors’ rights were
violated when a state official infringed upon their right
to vote freely for the candidate of their choosing.
Specifically, the Tenth Circuit held that “Article II and
the Twelfth Amendment provide presidential electors

14
the right to cast a vote for President and Vice
President with discretion.” Baca, 935 F.3d at 955.
This petition follows.
REASONS FOR GRANTING THE WRIT
This case meets all the conventional requirements
for certiorari. See Supreme Court Rule 10(a). The
Washington Supreme Court’s decision that states may
regulate the vote of an elector either directly or
indirectly conflicts with the Tenth Circuit’s contrary
decision, issued only two months later, that the
Constitution gives electors discretion to vote for
whomever they wish. The issue is undeniably
important: presidential elections in the Electoral
College will be increasingly close, and could literally
turn upon whether electors have a constitutionally
protected discretion. This case is the ideal vehicle to
decide the issue, because this appeal cleanly presents
the question outside of a heated political contest.
There is no guarantee that the next opportunity to
decide this question will arise in advance of a
contested presidential election. Finally, on the merits,
the Washington Supreme Court’s position that a state
may interfere with electors’ votes is at odds with the
plain text, structure, and original meaning of the
Constitution, as well as the history of presidential
Electoral College voting. This Court should grant the
petition and, upon hearing the case on the merits,
reverse.
I. The Decision Below Directly Conflicts With
A Recent Decision Of The Tenth Circuit And
Other Decisions.
The petition presents a direct split in legal
authority between the federal courts of appeal and

15
Washington’s court of last resort. Both Washington
and Colorado have laws—as do a majority of states—
that require their respective electors to vote for the
candidates who had won the popular vote in the state.
App. 2a; Baca, 935 F.3d at 901. In both states, at least
one elector voted for a candidate who did not win the
popular vote in that state. App. 3a–4a; Baca, 935 F.3d
at 901. And in both states, the electors were penalized
for their independent votes: the Washington electors
were fined $1,000, while the Colorado elector had his
vote discarded and was referred for perjury
prosecution. App. 4a; Baca, 935 F.3d at 914. Yet,
despite hearing constitutionally indistinguishable
cases, the courts reached opposite conclusions. The
Supreme Court of Washington upheld the fines as
constitutional on the ground that “nothing in article II,
section 1 suggests that electors have discretion to cast
their votes without limitation or restriction by the
state legislature.” App. 19a. Conversely, the Tenth
Circuit held that “Article II and the Twelfth
Amendment provide presidential electors the right to
cast a vote for President and Vice President with
discretion.” Baca, 935 F.3d at 955. Only this Court can
reconcile these conflicting decisions.
A. The reasoning and conclusions of the
Washington Supreme Court and Tenth
Circuit are irreconcilable.
The decisions of the Washington Supreme Court
and the Tenth Circuit are opposed on every material
point.
State v. federal authority. Both courts acknowledge,
as they must, that electors exercise a “federal function”
when they “vote by ballot” for candidates for President
and Vice President. App. 10a, 23a; Baca 953 F.3d at

16
907. This Court has repeatedly described Electors as
exercising a “federal function.” Burroughs, 290 U.S. at
545; see also Ray, 343 U.S. at 224 (noting that
“presidential electors exercise a federal function in
balloting for President and Vice-President” and
comparing the “federal function” of a presidential
elector to “the state elector who votes for
congress[persons]”); Bush v. Gore, 531 U.S. 98, 112
(2000) (Rehnquist, C.J., concurring) (same, quoting
Burroughs, 290 U.S. at 545). That characterization is
obvious.
Yet that is where the agreement ends: The courts
are directly split on whether this Court has already
resolved the question of elector freedom in its prior
decisions; the import of the electors’ undisputed
exercise of an independent federal function; and on the
appropriate method of interpreting the constitutional
text to answer this important question.
Whether Ray v. Blair resolves the question. The two
courts initially disagreed in their interpretation of this
Court’s only encounter with any aspect of elector
discretion: Ray v. Blair, 343 U.S. 230 (1952). In Ray,
as a condition of their appointment, this Court
permitted a state to require electors to pledge to
support the nominee of their party. 343 U.S. at 231.
That conclusion makes perfect sense of the states’
“appoint[ment]” power. But the Court expressly noted
that such “promises” may be “legally unenforceable”
because they could be “violative of an assumed
constitutional freedom of the elector under the
Constitution to vote as he [or she] may choose in the
electoral college.” Id. at 230 (citation omitted).
The Washington Supreme Court ignored this
Court’s expressly reserved question and read Ray

17
broadly to “dispose[] of this question [of elector
discretion].” App. 24a. The court said Ray stands for
the broad idea that “the Twelfth Amendment does not
demand absolute freedom of choice for electors.” App.
24a. It therefore found that Ray “rejects unfettered
elector discretion.” App. 24a n.9.
The Tenth Circuit disagreed. It thought that Ray’s
holding was “narrow.” Baca, 935 F.3d at 935. While
Ray recognized a state’s right to determine how
electors are appointed, the Tenth Circuit wrote that
“Ray does not address restrictions placed on electors
after appointment or actions taken against faithless
electors who have performed their federal function by
voting for a different presidential or vice presidential
candidate than those they pledged to support.” Id. at
936 (emphasis added). In contrast to the Washington
Supreme Court, the Tenth Circuit claimed that Ray in
fact “leaves open the relevant enforcement question.”
Id.
While the majority in Washington and the majority
in the Tenth Circuit were on opposite sides of the same
issue, the succinct dissent in the Washington Supreme
Court employed a similar line of reasoning as the
Tenth Circuit. Like the Tenth Circuit, the dissent in
Washington recognized that “Ray v. Blair concerns
only the broad authority to appoint electors . . . but did
not address the elector’s discretion” once appointed.
App. 28a. Because “[t]he Constitution provides the
State only with the power to appoint,” that “leav[es]
the electors with the discretion to vote their
conscience.” App. 29a. The Tenth Circuit’s agreement

18
with the Washington dissent—and not the majority—
creates a direct and irreconcilable split.6
The ability of states to interfere with an independent
federal function. The two courts also took
diametrically opposed views of the control that state
officials can exercise over officials exercising an
independent federal function. The Washington
Supreme Court determined that states are barred
from burdening the exercise of federal functions only
when states “engage in activity that was specifically
conferred to the federal government.” App. 18a. And
because “[t]he Constitution does not limit a state’s
authority in adding requirements to presidential
electors, indeed, it gives to the states absolute
authority in the manner of appointing electors,” App.
19a–20a, the Washington Supreme Court found that
requiring electors to vote for a particular candidate did
not violate the Supremacy Clause and did not run
afoul of the proper division between state authority
and an individual’s exercise of a federal function under
the Constitution.
The Tenth Circuit disagreed. It reasoned that “the
Supremacy Clause . . . immunizes all federal functions
from limitations or control by the states.” Baca, 935
F.3d at 938. Thus—in direct contrast to the
Washington Supreme Court’s view that any state
interference with voting not expressly prohibited by
the Constitution was permitted—the Tenth Circuit
held that a state could interfere with elector voting
“only if [that power is] expressly delegated by the
6 One Tenth Circuit judge dissented on jurisdictional grounds
but did not disagree with the court’s analysis of the merits of
elector discretion. See Baca, 935. F.3d at 956 (Briscoe, J.,
dissenting).

19
Constitution.” Id. at 939. And since that was not the
case, the interference was invalid.
The importance and meaning of constitutional text.
The Washington Supreme Court undertook no
detailed analysis of the relevant constitutional text.
Instead of analyzing the meaning of key constitutional
terms like “elector,” “vote,” and “ballot,” either
originally or today, the court instead based its decision
upon the “historic reality” that most electors were
expected to vote for the nominees of their party. App.
22a. In a footnote, the court addressed whether the
phrase “by Ballot” implied a secret ballot, but it did not
analyze other aspects of that word, nor did it discuss
the meaning of the words “elector” or “vote.” App. 23a
n.8. Ultimately, the court concluded that the language
was flexible enough to permit states to require electors
to vote for particular candidates.
The Tenth Circuit reasoned completely differently.
In a comprehensive opinion, the court analyzed
dictionary definitions of the key text from at least five
early dictionaries and said the words used “have a
common theme: they all imply the right to make a
choice or voice an individual opinion.” Baca, 935 F.3d
at 945. The court agreed with Petitioners “that the use
of these terms supports a determination that the
electors, once appointed, are free to vote as they
choose.” Id.
The upshot of this disagreement: as the law stands
today, in Washington, the State may infringe on
elector discretion in the next presidential election. But
in Colorado, and throughout the Tenth Circuit, states
may not. Only this Court can resolve this dispute and
render the law of a crucial component of presidential
selection consistent across the Nation.

20
B. The two recent cases reflect both sides of
a pre-existing split.
These two recent cases address the issue of elector
discretion head-on. That split alone warrants this
Court’s attention before the election of 2020.
Yet there has also been a longstanding divide
among the courts about how to think about electors
that independently warrants this Court’s definitive
resolution. That divide became evident as the lower
courts attempted to answer this unresolved question
on an emergency basis during the election of 2016.
Three days before the electors voted in 2016, the
Northern District of California found there were
“equally plausible opposing views” on the merits of
elector freedom, but it denied a request for emergency
relief on prudential grounds. Koller v. Brown, 224 F.
Supp. 3d 871, 880 (N.D. Cal. 2016). And in emergency
litigation involving the 2016 Colorado electors, a
Tenth Circuit panel noted that “there is language in
the Twelfth Amendment that could arguably support
the plaintiffs’ position.” Baca v. Hickenlooper, No. 161482, 2016 U.S. App. LEXIS 23391, at *13 & n.3 (10th
Cir. Dec. 16, 2016). Nonetheless, the Tenth Circuit on
the eve of the electoral vote denied a request for
emergency relief because it thought it “unlikely” that
electors’ votes would actually be interfered with. Id. at
*15 n.4.
These recent courts had trouble coming to a
definitive resolution in part due to a longstanding
split. Prior to 2016, the high courts of Alabama, Ohio,
and Kansas had all held or implied that the
Constitution requires elector independence. Op. of the
Justices, 250 Ala. 399, 401 (1948) (rejecting Alabama
state law that bound electors because the “legislature

21
cannot . . . restrict the right [to vote] of a duly elected
elector.”); State ex rel. Beck v. Hummel, 150 Ohio St.
127, 146 (1948) (“According to the federal Constitution
a presidential elector may vote for any person he [or
she] pleases for president or vice-president.”);
Breidenthal v. Edwards, 57 Kan. 332, 339 (1896) (“In
a legal sense the people of this State vote for no
candidate for President or Vice President, that duty
being delegated to 10 citizens who are authorized to
use their own judgment as to the proper eligible
persons to fill those high offices.”).
There has long been authority to the contrary,
however, from lower state and federal courts of several
jurisdictions. These court decisions tend to prize an
evolved constitutional meaning based on historical
practice over the text. For example, in Thomas v.
Cohen, 262 N.Y.S. 320, 324, 326 (Sup. Ct. 1933), a New
York trial judge found that an “elector who attempted
to disregard” the duty of his pledge “could . . . be
required by mandamus to carry out the mandate of the
voters of his State.” The Court in Thomas
acknowledged that its holding contradicts “the
language of the Constitution,” but it held that its
meaning had “ripened” over the course of dozens of
elections, and the Constitution had therefore come to
mean something very different from what the framers
had actually ratified. Id. See also Gelineau v. Johnson,
904 F. Supp. 2d 742, 748–49 (W.D. Mich. 2012)
(reasoning that the states “have great latitude in
choosing electors and guiding their behavior”); State ex
rel. Neb. Republican State Cent. Comm. v. Wait, 138
N.W. 159, 163 (Neb. 1912) (finding that declarations
by presidential electors that they would vote for the

22
candidates of another party constituted vacaturs of the
office).
This split has persisted long enough. As mentioned,
days before the electoral vote in Colorado, the Tenth
Circuit predicted that it was “unlikely” an elector’s
vote would be interfered with. Baca v. Hickenlooper,
No. 16-1482, 2016 U.S. App. LEXIS 23391, at *13 &
n.4 (10th Cir. Dec. 16, 2016). Yet what appeared
“unlikely” at the time of decision actually occurred
only three days later. Because it is increasingly likely
something similar will happen again, this Court
should intervene now to conclusively resolve the issue
so that courts are not left guessing next time around.
C. This appeal and Baca are not legally
distinguishable.
Although this Court should grant certiorari and
follow the Tenth Circuit’s well-reasoned opinion to
resolve this split, there is one aspect of the Tenth
Circuit’s opinion that was not correct. In a footnote,
and in dicta, the Baca court asserted that there might
be some legal difference between its decision and the
decision of the Washington Supreme Court, because of
the difference in the nature of the penalty. Baca, 935
F.3d at 950 n.30. Yet the suggestion that the cases are
distinguishable is incorrect.
In its footnote, the Tenth Circuit first expressly
said that it did “not embrace the analysis of the
majority opinion in In re Guerra.” Id. That understates
their disagreement. In fact, as illustrated by the
diametrically opposed reasoning described above, the
Tenth Circuit rejected essentially all of Guerra’s
reasoning.

23
The Tenth Circuit continued by noting that “the
issue before the Washington Supreme Court is
materially different than the question presented here:
Whether after voting in the electoral college has
begun, the state may remove an elector and nullify his
vote.” Id. Yet the footnote ends there. The Tenth
Circuit did not give any reason why the particular
sanction imposed—a civil fine in Washington, versus
removal from office and referral for perjury
prosecution in Colorado—impacted the constitutional
analysis. Nor did it explain why the particular
sanction would affect the validity of nearly identical
laws that each require electors to vote for particular
candidates.
In fact, there is no relevant difference. The question
of whether electors have constitutional discretion is
dispositive in both cases, and the two courts are split
on whether that right exists under the Constitution.
The particular enforcement mechanism—a fine in
Washington and elector removal in Colorado—is
constitutionally irrelevant. The question in both cases
is state power, and each case renders state power
differently. Electors are not “free” to perform their
federal function if subject to a fine, just as James
William McCulloch—a cashier of the federallychartered Second Bank of the United States—was not
free to perform his federal function because he was
fined by the state of Maryland. See McCulloch v.
Maryland, 17 U.S. (4 Wheat.) 316 (1819). The
difference may affect what vote gets transmitted to
Congress; it does not affect whether a state has
infringed an elector’s right to vote with discretion. The
Tenth Circuit has held that electors plainly have such
a right, and the Washington Supreme Court has held

24
they plainly do not. That conflict demands this Court’s
review.
To Petitioners’ knowledge, this Court has never
upheld a law that categorically prohibits the exercise
of an unfettered constitutional right merely because
the sanction was not as severe as it is elsewhere. Nor
can
otherwise
impermissible
governmental
restrictions stand so long as the government permits
citizens to engage in the conduct and then imposes
punishment after-the-fact (as in Washington) rather
than intervene before or during the act (as in
Colorado). To the contrary: in Sherbert v. Verner, 374
U.S. 398 (1963), this Court noted that the
government’s imposition of a mere fine for the
observation of Saturday Sabbath would be an
unconstitutional penalty on the exercise of the
constitutional right to free exercise of religion; to
infringe the right does not require that the
government physically prevent religious observance
on Saturday mornings. Id. at 404. It follows
necessarily that neither jail time nor official coercion
nor rejection of the vote is required to prove a
constitutional violation in this case. A fine is more
than enough of a sanction to give rise to an
unconstitutional interference with a constitutional
freedom.
Thus, if electors have a constitutional discretion in
their vote—as the Tenth Circuit has held—that
discretion is infringed by a fine as much as by direct
coercion. The core issue is whether presidential
electors have been sanctioned at all solely for
exercising an unambiguous constitutional discretion.
In both cases, they have—and the two courts came out

25
differently as to whether that was permissible. There
is thus no way to distinguish the cases.
II. The Question Presented Is Exceptionally
Important And Warrants Review In This
Particular Case.
There is no reason for this Court to wait any longer
to resolve this entrenched split. To the contrary: this
particular case presents the issue of elector freedom
directly and outside the context of a partisan political
battle. Because there is no guarantee this Court will
have another opportunity to resolve this question prior
to an election—where the outcome could be electiondispositive, and where the decision could be of
monumental significance—the Court’s intervention is
warranted in this particular appeal.
A. This issue is exceptionally important
because its ultimate resolution would
make clear the rules for the Electoral
College before a contested presidential
election.
The courts and parties involved in this litigation all
agree that this case is of exceptional importance. It is
possible that a presidential election could turn on just
a few disputed electoral votes cast in purported
violation of state law; currently, over half the states
have laws that purport to dictate the votes of electors
in one way or another. See FairVote, “State Laws
Binding Electors,” http://bit.ly/StateBindingLaws. If
that happened, it is not clear whether the states,
citizenry, or Congress will accept those votes as valid.
The country would need to figure out how to resolve
such a contest over electoral votes in the midst of a
heated partisan political dispute. It is not entirely

26
clear how that would play out—but there is a very real
risk of substantial unrest, or worse, if that does
happen.
This Court need not guess what that would look
like, however. Instead, it need only turn to history. The
election of 1876 was decided by a one-vote margin in
the Electoral College following disputes about
electoral results and elector slates in three states, plus
the validity of a single electoral vote from Oregon. The
controversy was such that the identity of the new
president was not determined until March 2, 1877, two
days before inauguration day. See William H.
Rehnquist, Centennial Crisis: The Disputed Election of
1876 5 (2004). Rutherford B. Hayes was ultimately
declared the winner with a majority of 185 electoral
votes to Samuel Tilden’s 184.
The late Chief Justice Rehnquist’s book about the
disputed 1876 election is not called Centennial Crisis
for nothing. It describes a nearly forgotten historical
scenario where disputed vote tallies led to competing
slates of electors from multiple states that nearly tore
the country apart. Chief Justice Rehnquist found that,
in the uncertainty following the initial results, there
were “realistic threats of violence—of armed partisans
marching on Washington.” Id. at 248. And because
“Congress could not resolve the dispute by itself,” it
turned to an extraordinary ad hoc Electoral
Commission composed of five Supreme Court justices
and ten partisan politicians to determine the validity
of certain elector slates. Id. Chief Justice Rehnquist
concluded that without the country’s uneasy
acceptance of the work of the Commission—which
resolved each disputed electoral vote by a slim 8-7
margin in favor of Hayes—“the country would [have

27
been] thrown back to some form of either violence or
political Russian roulette.” Id.
No one can predict when a presidential election will
occur that turns on the vote of a handful of electoral
votes that are disputed because cast contrary to state
law. But what is certain is that recent presidential
elections have been quite close; in 2000, for instance,
the election was decided by five electoral votes. The
most recent election had an unprecedented number of
electors vote independently: seven independent votes
were cast and recorded, and additional electors in
Maine, California, Colorado, and Minnesota either
sued over their right to vote independently or
attempted to do so and were denied the right by state
officials, see FairVote, “Faithless Electors,” at
https://perma.cc/CL6W-HGQ5 (counting seven actual
anomalous votes and three attempted votes that were
interfered with); Koller, 224 F. Supp. 3d at 879
(additional California litigation). It is not improbable
that the near future could bring an election that is as
close in the Electoral College as the 2000 election, and
that such an election could have several electors who
may vote inconsistently with their electoral pledges or
expectations.
In this milieu, the only sure way to avoid a crisis
scenario like that following the election of 1876 is for
this Court to resolve the issue of elector discretion
now, outside of an actual disputed partisan contest.
The Court’s decision in this case will assuredly not
affect the outcome of the presidential election in 2016.
Instead, it will conclusively determine the validity of
laws that attempt to restrict elector discretion that are
in effect in more than half the states. Then, if the
Court’s decision affects any future election, it will do

28
so only as a matter of constitutional principle, not
partisan affiliation. That makes this Court’s
intervention now critical.
That factor is the main reason why this Court
should grant this petition now. But, as an additional
benefit, this Court’s decision could also settle whether
proposed laws that cabin elector discretion in novel
ways are also permissible. In a move expressly
designed to force the current President to release his
tax filings, several state legislatures have recently
considered bills that would prevent presidential
electors in those states from voting for candidates who
do not release copies of their recent tax returns. See S.
26, § 3, Assemb. Reg. Sess. 2017-2018 (N.Y. 2017); A.
1230, Statement, 218th Leg., Reg. Sess. (N.J. 2018)
(“The bill also provides that an elector shall not vote
for a candidate for President or Vice-President unless
the candidate submits federal income tax returns to
the [State]”).7 A decision in this case would likely settle
whether elector discretion may be cabined on those
grounds or any other.

7 In 2017, the California legislature passed a similar bill that
would deny ballot access to candidates that did not release their
tax returns, but Governor Jerry Brown vetoed it when he found
it “may not be constitutional.” Veto Message on S.B. 149 from
Gov. Jerry Brown to Members of the California State Senate (Oct.
15, 2017). In 2019, California actually enacted a bill that denies
ballot access in primaries to candidates that do not release their
tax returns. See 2018 Cal. SB 27 (enacted July 30, 2019). Because
the California law applies to primary elections only and does not
expressly cabin elector discretion, it is not clear whether that it
would be impacted by the Court’s decision in this case.

29
B. This case is the best possible vehicle to
resolve this issue.
Not only is now the right time for this Court to
intervene, but this unique case is the best possible
vehicle for the Court to consider the issue. The fines
imposed on Petitioners mean that this case comes to
this Court based on Petitioners’ appeal of the
imposition of the fines. There is no emergency; this is
not a preliminary ruling; there are no questions of any
party’s standing or jurisdiction to hear the issue; and
the outcome of the case will not determine the identity
of the next President of the United States. It is thus
ideal for this Court’s review.
Moreover, as the Washington Supreme Court’s
decision reveals, this case cleanly presents all
available constitutional theories for elector discretion.
Petitioners in this case have made arguments based
on Article II, the Twelfth Amendment, the Supremacy
Clause, the Qualifications Clause, and the First
Amendment. See App. 5a–27a. This means that
essentially every strong argument will be thoroughly
considered by this Court.
In particular, the presence of a viable First
Amendment claim is a strong reason to grant
certiorari in this case. Although the lower courts have
not given as much attention to this theory of the case
as they have to the Twelfth Amendment theory, the
Washington Supreme Court’s dismissal of Petitioners’
First Amendment claims rests on an incorrect
premise: that presidential electors “carry[] out a state
government duty” and so do not possess a vote that is
personal to them. App. 26a. That is wrong: as this
Court has repeatedly made clear, electors actually
perform a “federal function” in casting ballots. See

30
Burroughs, 290 U.S. at 545. Considering the First
Amendment thus permits this Court to view the heart
of the matter from a different angle than that provided
by Article II and the Twelfth Amendment.
This Court could also conceivably grant certiorari
and hold a merits hearing in the Baca case from
Colorado if the State requests it. As the Tenth Circuit
correctly concluded, that case too presents a justiciable
controversy. See Baca 935 F.3d at 907–08. Moreover,
if the Court is uncertain whether there is any
meaningful constitutional difference between a state
fining electors on the basis of their votes (as in
Washington) and a state removing and replacing an
elector on the basis of his vote (as in Colorado), then
granting both cases would permit any decision on this
issue to cover both possible sanctions.
What is critical is that this Court not wait to grant
certiorari in either both this case and the Baca case or
this case only, with the Colorado case then held for
resolution of this case. Granting one or both cases now
means that the issue would be resolved conclusively in
advance of the 2020 election.
III.

The Decision Below Is Incorrect.

On the merits, the Washington Supreme Court
incorrectly upheld the penalty on electors who did
nothing but cast votes for their preferred candidates.
The court’s decision is inconsistent with constitutional
text; upsets the proper balance of power between the
states, the federal government, and individual rights;
and misinterprets an unbroken line of constitutional
history.
It is bedrock law in our federal system that a state
may not “dictate the manner in which the federal

31
function is carried out.” Goodyear Atomic Corp. v.
Miller, 486 U.S. 174, 181 n.3 (1988). Yet Washington
law purports to “dictate” the performance of a “federal
function” by requiring electors to vote in a particular
way and penalizing them for their failure to do so. As
the Tenth Circuit correctly concluded, see Baca, 935
U.S. at 937–41, the Supremacy Clause prohibits the
State’s interference.
In particular, Article II and the Twelfth
Amendment provide detailed instructions about how
the electoral vote must proceed: the electors
themselves must “make distinct lists of all persons
voted for as President, and of all persons voted for as
Vice-President, and of the number of votes for each,”
and electors themselves must then “sign and certify”
those lists and transmit the list directly to the federal
government. See U.S. CONST. amd. XII. The federal
statutes implementing the Amendment likewise
preclude any interference by state officials with the
electors’ vote. See 3 U.S.C. §§ 9, 12. Thus, to maintain
the federal requirement of elector independence, state
officials may not sanction electors for failing to vote in
a particular manner.
The Washington Supreme Court’s argument to the
contrary is impossible to accept. The court seemed to
reason that somehow the federal function of electors is
not firmly established by the Constitution or federal
law. See App. 19a. But any careful reading of
constitutional text—as the Tenth Circuit engaged in—
reveals just the opposite: not only are there detailed,
federally-required procedures for independent elector
voting, but the use of the words “elector,” “vote,” and
“ballot” plainly require that presidential electors be
permitted to do their work without interference or

32
coercion. Baca, 935 F.3d at 945. The freedom is the
same freedom that any other elector in any other
election must have. Otherwise, the right to vote is
meaningless.
The Washington Supreme Court also reasoned that
the state’s power to appoint electors encompasses a
complete power to also control them in the exercise of
their core federal function. But, as the Tenth Circuit
and the dissenting justice in Washington recognized,
the two powers are different. In some circumstances,
an appointing officer may also have the power to
control or remove an appointee. But that supervisory
authority runs with the appointment power only when
that power is either expressly granted or derives from
other powers, like “the President’s broad executive
power and his responsibility to faithfully execute the
laws.” Id. at 941. Thus, until the Nineteenth
Amendment, States had the power to appoint
Senators. States could even issue instructions to
Senators about how to vote. But “attempts by state
legislatures to instruct senators have never been held
to be legally binding.” Saul Levmore, Precommitment
Politics, 82 VA. L. REV. 567, 592 (1996). Thus, no
Senator was ever punished by a state for failing to
follow an instruction, despite state legislators
believing Senators worked for them.
Likewise, and “[u]nlike the President appointing
subordinates in the executive department, states
appointing presidential electors are not selecting
inferior state officials to assist in carrying out a
function for which the state is ultimately responsible.”
Baca, 935 F.3d at 941. To the contrary, “[w]hen
undertaking th[eir] federal function, presidential
electors are not executing their appointing power’s

33
function but their own.” Id. Put simply, presidential
electors are independent constitutional officials like
U.S. Senators, not subordinate actors like executive
branch employees. The Washington Supreme Court
erred by missing this critical point.
The Washington Supreme Court made other key
constitutional errors that this Court should also
correct. For instance, it drew meaningless distinctions
between this case and prior cases that have
invalidated conceptually similar restrictions because
they violate the key principle that no one may add
requirements for constitutional offices over and above
those in the Constitution. See App. 22a–23a
(discussing U.S. Term Limits, Inc. v. Thornton, 514
U.S. 779 (1995), and Powell v. McCormack, 395 U.S.
486 (1969)). In fact, the Qualifications Clause cases
provide another related reason to reverse.
Finally, as mentioned, the court below made
another reversible error when it claimed electors had
no First Amendment rights in their electoral votes.
Actually, the State’s penalizing Petitioners solely
because they cast a vote in a way disapproved of by the
State is what this Court has previously characterized
as unconstitutional “retaliation amounting to
viewpoint discrimination.” Nevada Commission on
Ethics v. Carrigan, 564 U.S. 117, 125 (2011); see also
Clarke v. United States, 886 F.2d 404, 417 (D.C. Cir.
1989) (concluding that congressional legislation that
“coerces the [D.C.] Council members’ votes” was
invalid under the First Amendment), vacated as moot
after legislative repeal, 915 F.2d 699 (D.C. Cir. 1990).
The votes belong to the electors themselves, and they
are expressions of their political views. The State may

not penalize
expression.

or

34
otherwise

interfere

with

that

***
This petition presents this Court with the rare
opportunity to resolve an important electoral issue on
which lower courts are irreconcilably split without any
external time pressure or obvious political
implications. For the sake of not only future
presidential electors but also future citizens, this
Court ought to grant this petition and decide whether
states may interfere with or otherwise penalize
presidential electors who vote contrary to pledges or
state binding laws.

35
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for certiorari to determine whether
presidential electors have constitutional discretion to
vote for whatever person they choose.
Respectfully submitted,

JONAH O. HARRISON
ARÊTE LAW GROUP PLLC
1218 Third Ave.
Suite 2100
Seattle, WA 98101
(206) 428-3250
SUMEER SINGLA*
DANIEL A. BROWN*
HUNTER M. ABELL*
WILLIAMS KASTNER &
GIBBS, PLLC
601 Union St.
Suite 4100
Seattle, WA 98101
(206) 628-6600
*Admissions pending

October 7, 2019

L. LAWRENCE LESSIG
Counsel of Record
JASON HARROW
EQUAL CITIZENS
12 Eliot Street
Cambridge, MA 02138
(617) 496-1124
lessig@law.harvard.edu

Attorneys for Petitioners

APPENDIX

1a
APPENDIX A
193 Wash.2d 380 (2019)
SUPREME COURT OF WASHINGTON
In the MATTER OF LEVI GUERRA, ESTHER V.
JOHN, and PETER B. CHIAFALO, APPELLANTS.
NO. 95347-3
ARGUED JANUARY 22, 2019
FILED MAY 23, 2019
MADSEN, Justice
¶1 Appellants Levi Guerra, Esther John, and
Peter Chiafalo moved for direct appeal of a Thurston
County Superior Court decision upholding the
imposition of a $1,000 fine for failing to cast their votes
in the United States Electoral College in accordance
with the popular vote in the State of Washington. They
argue the fine is a violation of article II, section 1 of
the United States Constitution, the Twelfth
Amendment, and the First Amendment.
¶2 For the reasons below, we reject appellants’
argument and affirm the trial court.
Background Facts

FACTS

¶3 Under Washington State election law RCW
29A.56.320, each political party with presidential
candidates is required to nominate electors from its
party equal to the number of senators and

2a
representatives allotted to the state. People nominated
are required to pledge to vote for the candidate of their
party.1,2 Should nominees choose not to vote for their
party candidate, they may be subject to a civil penalty
of up to $ 1,000. See RCW 29A.56.340. The people of
the state do not vote for presidential electors. Rather,
they vote for presidential candidates. The nominees of
1

reads:

RCW 29A.56.320 covers how electors are nominated. It

In the year in which a presidential election is
held, each major political party and each minor political
party or independent candidate convention that
nominates candidates for president and vice president of
the United States shall nominate presidential electors for
this state. The party or convention shall file with the
secretary of state a certificate signed by the presiding
officer of the convention at which the presidential electors
were chosen, listing the names and addresses of the
presidential electors. Each presidential elector shall
execute and file with the secretary of state a pledge that,
as an elector, he or she will vote for the candidates
nominated by that party. The names of presidential
electors shall not appear on the ballots. The votes cast for
candidates for president and vice president of each
political party shall be counted for the candidates for
presidential electors of that political party; however, if
the interstate compact entitled the “agreement among the
states to elect the president by national popular vote,” as
set forth in RCW 29A.56.300, governs the appointment of
the presidential electors for a presidential election as
provided in clause 9 of Article III of that compact, then
the final appointment of presidential electors for that
presidential election shall be in accordance with that
compact.

2 Appellants do not challenge the requirement that
electors pledge to vote for the candidates who win the popular
vote.

3a
the party that wins the popular vote are appointed by
the legislature to be Washington State’s presidential
electors. Along with all but two other states,
Washington has a “winner-take-all” electoral system.
¶4 Appellants were nominated as presidential
electors for the Washington State Democratic Party
ahead of the 2016 presidential election. Hillary
Clinton and Tim Kaine won the popular vote in
Washington State, meaning appellants and their
fellow Democratic Party nominees were appointed by
the legislature to serve as electors for the State of
Washington.
¶5 Based on the results from the nationwide
election, it was expected that Donald Trump would
become the next president. Nationwide, some electors,
including appellants, announced they would not vote
for either Clinton or Trump and would instead attempt
to prevent Trump from receiving the minimum
number of Electoral College votes required to become
president.3 Under the Constitution, if no candidate
receives a majority of the Electoral College votes, the
House of Representatives is to determine who will be
the next president.
¶6 On December 19, 2016, appellants, along
with the other presidential electors, met in Olympia to
cast their ballots. Appellants did not vote for Hillary
3 During the 2016 election, seven presidential electors
across the country voted for someone other than their pledged
candidate. Four of these “faithless electors” were a part of
Washington State’s contingency to the Electoral College. See
Kiersten Schmidt & Wilson Andrews, A Historic Number of
Electors Defected, and Most Were Supposed to Vote for Clinton,
N.Y. TIMES (Dec. 19, 2016), https://www.nytimes.com/
interactive/2016/12/19/us/elections/electoral-collegeresults.html.

4a
Clinton and Tim Kaine, as required by their pledge,
but instead voted for Colin Powell for president and a
different individual for vice-president. These votes
were counted and transmitted to Congress for the
official tally of the electoral votes. On December 29,
2016, the Washington secretary of state fined
appellants $ 1,000 each, under RCW 29A.56.340, for
failing to vote for the nominee of their party.4
Procedural Facts
¶7 Appellants appealed their fines to an
administrative law judge (ALJ), arguing the fines were
unconstitutional. Having no authority to rule on
constitutional matters, the ALJ upheld the imposition
of the fine, and appellants appealed to the Thurston
County Superior Court.
RCW 29A.56.340 outlines the procedure for casting
electoral votes and the penalty for failing to vote for the nominee
of the elector’s party. It reads:
The electors of the president and vice president
shall convene at the seat of government on the day fixed
by federal statute, at the hour of twelve o’clock noon of
that day. If there is any vacancy in the office of an elector
occasioned by death, refusal to act, neglect to attend, or
otherwise, the electors present shall immediately proceed
to fill it by voice vote, and plurality of votes. When all of
the electors have appeared and the vacancies have been
filled they shall constitute the college of electors of the
state of Washington, and shall proceed to perform the
duties required of them by the Constitution and laws of
the United States. Any elector who votes for a person or
persons not nominated by the party of which he or she is
an elector is subject to a civil penalty of up to one thousand
dollars.
(Emphasis added.)
4

5a
¶8 The appeal was heard before Judge Carol
Murphy of the Thurston County Superior Court. In
affirming the secretary of state, the trial court noted
the fine was constitutionally permissible because
“[t]he State is not adding a qualification, nor is the
State here requiring specific performance of the
pledge.” Verbatim Report of Proceedings at 49.
Appellants timely filed a notice of appeal and filed a
motion for direct review in this court.
ANALYSIS
State Authority under the Constitution
¶9 Appellants claim that as presidential
electors, they perform a federal function. Further, they
contend that electors are intended to exercise
independent judgment in casting their ballots and that
imposition of a fine by state law for failing to vote in a
particular way interferes with a federal function in
violation of the Constitution.
¶10 Electors rely heavily on the origins of the
Electoral College, so we begin there. When the
Electoral College was first created, there were a
number of competing proposals for selecting the
executive. Some delegates to the Constitutional
Convention of 1787 proposed that the national
legislature should select the president. See Matthew J.
Festa, The Origins and Constitutionality of State Unit
Voting in the Electoral College, 54 VAND. L. REV. 2099,
2109-10 (2001). Initially, this proposal generally
enjoyed agreement. Id. at 2109. However, some feared
that entrusting selection of the executive to the
legislative
branch
would
compromise
the

6a
independence of the executive branch. Id. at 2110. As
an alternative, one delegate suggested that the
president be appointed by the people. Id. He also
suggested a system that divided the states into
districts with an elector being appointed in each
district who would then elect the president.
¶11 As the debates continued, the two
significant, competing proposals were direct popular
election and appointment of the executive by
Congress. Id. at 2112-13. The idea of a national vote
gained support among the delegates due to strong
concerns about the legislative branch appointing the
executive. Id. at 2113. James Madison advocated for
the national vote, but delegates from the small states
objected, seeing it as disadvantageous for their states.
Id. at 2114. When the delegates appeared deadlocked,
a committee with one representative from each state
was tasked with finding a reasonable solution. Id. at
2115. Ultimately, the committee returned with a
proposal similar to today’s Electoral College system—
the president would be selected by a number of
electors, based on the number of members of Congress
each state was entitled to, who would be appointed by
their respective states in such manner as they see fit.
Id. at 2116. The system was later revised so that in the
event of a runoff election, the president would be
selected by the House of Representatives and the vicepresident would be elected by the Senate. Id. at 2119.
¶12 When gathering support for ratification of
the Constitution, Alexander Hamilton later wrote
about the system agreed to in the convention and how
it operated. See THE FEDERALIST No. 68 (Alexander
Hamilton). Hamilton noted the importance of having
the president elected by “men most capable of

7a
analyzing the qualities adapted to the station.” Id. “A
small number of persons, selected by their fellowcitizens from the general mass, will be most likely to
possess the information and discernment requisite to
so complicated an investigation.” Id. He opined that
selecting several electors to nominate the president
would be more prudent than having just one elector
nominating the president. Similarly, having the
electors vote secretly by ballot and within their
respective states would serve to obstruct “cabal,
intrigue, and corruption” from entering the electoral
process. Id.
¶13 The Electoral College system was adopted
in article II, section 1 of the Constitution and limits
the number of electors from each state to the number
of senators and representatives allocated to the state.
U.S. Const. art. II, § 1, cl. 2. Additionally, no senator,
representative, or persons holding federal offices of
trust or profit could be selected as electors. Id.
¶14 The manner of appointment of electors was
left to the states. In the first presidential election, the
majority of states decided their respective state
legislatures would appoint electors to the Electoral
College. See Jerry H. Goldfeder, Election Law and the
Presidency: An Introduction and Overview, 85
FORDHAM L. REV. 965, 968 (2016). Now, every state
nominates electors through the popular vote. See id.
Every state except for Maine and Nebraska employs a
winner-take-all method of allocating elector votes. Id.
¶15 The initial Electoral College system was not
without its flaws. The greatest problem was that the
Constitution did not require electors to vote for a
president and vice-president separately. This
oversight manifested in the presidential election of

8a
1800. John Adams picked Charles Pinckney as his
running mate, while Jefferson chose Aaron Burr. Id.
at 975. Jefferson and Burr both received 73 electoral
votes even though Burr was running for vicepresident. Id. As a result of the tie, the presidential
election was sent to the House of Representatives. Id.
To prevent a recurrence of the problem, the Twelfth
Amendment was passed, requiring electors to cast one
vote for the president and one vote for vice-president.
U.S. Const. amend. XII.
¶16 Historically, the Electoral College has been
largely a formality, as generally the electors would
cast their votes consistent with the popular vote of
their respective state. See Norman R. Williams,
Reforming the Electoral College: Federalism,
Majoritarianism, and the Perils of Subconstitutional
Change, 100 GEO. L.J. 173, 182 (2011). Indeed, even at
the outset, “presidential electors were understood to be
instruments for expressing the will of those who
selected them, not independent agents authorized to
exercise their own judgment.” Keith E. Whittington,
Originalism, Constitutional Construction, and the
Problem of Faithless Electors, 59 ARIZ. L. REV. 903, 911
(2017). However, there have been instances where an
elector voted for another candidate. Williams, supra,
at 182. Today most states require some form of pledge
by electors to vote for a particular party’s candidate,
and a number of states also have adopted
ramifications should an elector vote contrary to that
pledge. Id. at 182 & n.36. Neither article II, section 1,
nor the Twelfth Amendment addresses electors’
discretion in casting their votes.5

5

Article II, section 1 of the Constitution reads, in part:

9a

Each state shall appoint, in such manner as the
legislature thereof may direct, a number of electors, equal
to the whole number of senators and representatives to
which the state may be entitled in the congress: but no
senator or representative, or person holding an office of
trust or profit under the United States, shall be appointed
an elector.
The Twelfth Amendment reads:
The electors shall meet in their respective states
and vote by ballot for president and vice president, one of
whom, at least, shall not be an inhabitant of the same
state with themselves; they shall name in their ballots the
person voted for as president, and in distinct ballots the
person voted for as vice president, and they shall make
distinct lists of all persons voted for as president, and of
all persons voted for as vice president, and of the number
of votes for each, which lists they shall sign and certify,
and transmit sealed to the seat of the government of the
United States, directed to the president of the senate; the
president of the senate shall, in the presence of the senate
and house of representatives, open all the certificates and
the votes shall then be counted; the person having the
greatest number of votes for president, shall be the
president, if such number be a majority of the whole
number of electors appointed; and if no person have such
majority, then from the persons having the highest
numbers not exceeding three on the list of those voted for
as president, the house of representatives shall choose
immediately, by ballot, the president. But in choosing the
president, the votes shall be taken by states, the
representation from each state having one vote; a quorum
for this purpose shall consist of a member or members
from two-thirds of the states, and a majority of all the
states shall be necessary to a choice. And if the house of
representatives shall not choose a president whenever the
right of choice shall devolve upon them, before the fourth
day of March next following, then the vice president shall
act as president, as in the case of the death or other
constitutional disability of the president. The person

10a
¶17 Against this backdrop, appellants first
argue that because the Court in Burroughs v. United
States, 290 U.S. 534, 54 S. Ct. 287, 78 L.Ed. 484 (1934),
held the electors in the Electoral College perform a
federal function when casting their ballots, McCulloch
v. Maryland, 17 U.S. (4 Wheat.) 316, 4 L.Ed. 579
(1819), precludes the State from imposing a fine
because it unconstitutionally interferes with a federal
function. Br. Of Appellants at 9.
¶18 Burroughs is one of the earliest cases where
the Supreme Court has held presidential electors
perform a federal function when casting their votes in
the Electoral College. In Burroughs, the petitioners
were charged with multiple counts of violating the
Federal Corrupt Practices Act, 2 U.S.C. §§ 241-256.
The act was the first comprehensive campaign reform
statute and required that federal candidates disclose
financial information. Burroughs, 290 U.S. at 540-42,
54 S.Ct. 287. The petitioners challenged the
indictment, arguing in part that the act contravened
article II, section 1 of the Constitution. Id. at 542, 54
S. Ct. 287.

having the greatest number of votes as vice president,
shall be the vice president, if such number be a majority
of the whole number of electors appointed, and if no
person have a majority, then from the two highest
numbers on the list, the senate shall choose the vice
president; a quorum for the purpose shall consist of twothirds of the whole number of senators, and a majority of
the whole number shall be necessary to a choice. But no
person constitutionally ineligible to the office of president
shall be eligible to that of vice president of the United
States.

11a
¶19 While the court noted, “[P]residential
electors are not officers or agents of the federal
government, they exercise federal functions under,
and discharge duties in virtue of authority conferred
by, the Constitution of the United States,” the Court
determined that Congress enacted the Federal
Corrupt Practices Act to “preserve the purity of
presidential and vice presidential elections.” Id. at
545, 54 S.Ct. 287 (citation omitted), 544, 54 S.Ct. 287.
It did not “interfere with the power of a state to
appoint electors or the manner in which their
appointment” was made and was enacted only to
address “political committees organized for the
purpose of influencing elections in two or more states.
Id. at 544, 54 S. Ct. 287. The statute in no sense
invades any exclusive state power.” Id. at 545, 54 S.
Ct. 287.
¶20 In McCulloch, Congress passed an act to
incorporate a national bank. Maryland subsequently
passed a law that imposed a tax on all banks in the
state. See 17 U.S. at 425. When the tax was challenged,
the State argued that Congress did not have the
authority to create a national bank, and the states
have the authority to tax such an institution. Id. at
400. The Court engaged in a lengthy discussion of
whether Congress had the authority to create a
national bank. Congress, the Court held, has the
power to “lay and collect taxes; to borrow money; to
regulate commerce; to declare and conduct a war; and
to raise and support armies and navies.” Id. at 407.
Although not expressly enumerated in the
Constitution, the Court held the necessary and proper
clause allowed Congress to pursue means that are
necessary to the advancement of its enumerated

12a
powers. Id. at 418-20. Thus, the Court held the
incorporation of the national bank was constitutional.
Id. at 423-24.
¶21 The national government, in being given
the power to create the national bank, also impliedly
wielded the “power to preserve” said creation. Id. at
426. Therefore, a “power to destroy, if wielded by a
different hand, is hostile to, and incompatible with
these powers to create and to preserve.” Id. The
Maryland tax on banks at issue, the Court held, is a
power that “may be exercised so as to destroy [the
bank].” Id. at 427. Although states have a right to tax
the people and their property, “[t]he sovereignty of a
state extends to everything which exists by its own
authority, or is introduced by its permission.” Id. at
429. The power to create a national bank however, was
“not given by the people of a single state” but, rather,
“given by the people of the United States.” Id. “[A]
single state cannot confer a sovereignty which will
extend over them.” Id. Maryland, therefore, could not
tax the national bank, as it interfered with a federal
function.
¶22 Appellants cite a number of examples of
state actions that courts have held interfere with a
federal function. In Goodyear Atomic Corp. v. Miller,
the issue was whether a state could subject a federal
nuclear production facility operated by a private entity
to a workers’ compensation provision for violating a
state safety regulation. 486 U.S. 174, 178, 108 S. Ct.
1704, 100 L.Ed.2d 158 (1988). The complainant in that
case was injured while performing routine
maintenance work at the plant. Id. at 176, 108 S. Ct.
1704. He was awarded $9,000 in workers’
compensation. Id. The complainant then filed for an

13a
additional award under state law, which provides
additional compensation when an employer fails to
comply with the state’s safety requirements. Id.
¶23 The Court stated that “federal installations
are shielded by the Supremacy Clause from direct
state regulation unless Congress provides ‘clear and
unambiguous’ authorization for such regulation.” Id.
at 180, 108 S. Ct. 1704 (quoting Envtl. Prot. Agency v.
State Water Res. Control Bd., 426 U.S. 200, 211, 96 S.
Ct. 2022, 48 L.Ed.2d 578 (1976)). However, the Court
dismissed the issue of whether a supplemental
workers’ compensation award is a direct regulation by
the states because “[the relevant federal statute]
provides
the
requisite
clear
congressional
authorization for the application of the provision to
workers at the Portsmouth facility.” Id. at 182, 108 S.
Ct. 1704. Thus, the Court held that the private
contractor could be subject to a supplemental workers’
compensation award under state law. Appellants here
rely on this case for the principle that a state may not
“dictate the manner in which the federal function is
carried out.” Id. at 181 n.3, 108 S.Ct. 1704.
¶24 Similarly, courts have struck down actions
taken under state constitutional provisions when they
unconstitutionally interfere with federal functions. In
Hawke v. Smith, the issue was whether the people of a
state could use popular referendum to veto the state
legislature’s
ratification
of
the
Eighteenth
Amendment. 253 U.S. 221, 224-25, 40 S. Ct. 495, 64
L.Ed. 871 (1920). In the state’s constitution, any
proposed amendment to the Constitution ratified by
the General Assembly was also subject to a
referendum by the people. Id. at 225, 40 S. Ct. 495. The
Court held that “[t]he determination of the method of

14a
ratification is the exercise of a national power
specifically granted by the Constitution; that power is
conferred upon Congress, and is limited to two
methods, by action of the legislatures of three-fourths
of the States, or conventions in a like number of
States.” Id. at 227, 40 S. Ct. 495. “[T]he power to ratify
a proposed amendment to the Federal Constitution
has its source in the Federal Constitution.” Id. at 230,
40 S. Ct. 495. If the Constitution wished direct action
by the people, it would have been explicit in doing so.
See id. at 228, 40 S. Ct. 495 (citing U.S. Const. art. I, §
2).
¶25 In Leser v. Garnett, the State of Maryland
challenged the validity of the Nineteenth Amendment.
258 U.S. 130, 136, 42 S. Ct. 217, 66 L.Ed. 505 (1922).
The State had refused to ratify the proposed
amendment. Id. The plaintiffs argued that several
states have state constitutional provisions that render
their legislatures ratifications invalid.6 Id. at 136-37,
42 S. Ct. 217. As stated in Hawke, the Leser Court held
that “the function of a state legislature in ratifying a
proposed amendment to the Federal Constitution, like
the function of Congress in proposing the amendment,
is a federal function . . . and it transcends any
limitations sought to be imposed by the people of a
State.” Id. at 137, 42 S. Ct. 217.
¶26 Finally, appellants argue this court has also
recognized the federal function principle. In
Department of Labor & Industries v. Dirt & Aggregate,
Inc., this court held that state law cannot subject a
6 It is unclear what specific state constitutional provisions
were alleged to invalidate legislatures’ ratification of the
Nineteenth Amendment.

15a
federal subcontractor in a national park to its
regulations. 120 Wash.2d 49, 52-53, 837 P.2d 1018
(1992). The department in that case sought to enforce
provisions of the Washington Industrial Safety and
Health Act of 1973 (WISHA), chapter 49.17 RCW, in
the boundaries of a national park. The appellees in
that case had constructed a road within the park, and
the department conducted noise and air testing at the
site solely under the authority of WISHA. 120 Wash.2d
at 50, 837 P.2d 1018. A Washington State statute had
ceded “ ‘[e]xclusive jurisdiction . . . to the United States
over and within all the territory . . . set aside for the
purposes of a national park.’ ” Id. at 52, 837 P.2d 1018
(quoting RCW 37.08.200 (formerly Rem. Rev. Stat. §
8110)). Because exclusive jurisdiction now lay in
Congress, we reasoned that “state regulation of
activities within the federal enclave may resume only
with the express permission of Congress.” Id. at 53,
837 P.2d 1018. Although the department argued the
Occupational Safety and Health Act of 1970, 29 U.S.C.
§§ 651-678, and a WISHA operational status
agreement with the secretary of labor granted it
authority, we disagreed, holding that nothing in the
language “constitute[s] a specific and unambiguous
grant of authority.” Id. at 54, 837 P.2d 1018. Based on
the above line of cases, appellants argue the
imposition of the fine in this case constitutes state
interference of a federal function and should be struck
down.
¶27 The State does not dispute that presidential
electors perform a federal function when casting a vote
in the Electoral College. See Br. Of Resp’t at 12-13.
Instead, the State argues that article II, section 1 of
the Constitution grants to state legislatures plenary

16a
power to appoint electors and determine the manner
in which their appointment shall be made, and the fine
falls within that broad grant of authority. Id. at 8. The
State argues that Ray v. Blair, 343 U.S. 214, 72 S. Ct.
654, 96 L.Ed. 894 (1952), McPherson v. Blacker, 146
U.S. 1, 35, 13 S. Ct. 3, 36 L.Ed. 869 (1892), and
Burroughs support its position.
¶28 The issue in Ray, 343 U.S. at 217-18, 72
S.Ct. 654, was whether a state statute requiring
electors to pledge their votes to a specific party
candidate was unconstitutional. The Supreme Court of
Alabama struck the provision down, holding that the
pledge was in violation of article II, section 1 and the
Twelfth Amendment to the Constitution. Id. at 223, 72
S. Ct. 654. The Court disagreed, holding that nothing
in the Constitution prohibits an elector from
“announcing his choice beforehand, pledging himself.”
Id. at 228, 72 S. Ct. 654. The Court went on to note,
“History teaches that the electors were expected to
support the party nominees. Experts in the history of
government recognize the long-standing practice.” Id.
at 228-29, 72 S. Ct. 654 (footnote omitted); see also id.
at 228-29 nn.15-16, 72 S.Ct. 654. Indeed, the Court
held that while presidential electors exercise a federal
function, “they are not federal officers or agents any
more than the state elector who votes for congressmen.
They act by authority of the state that in turn receives
its authority from the Federal Constitution.” Id. at
224-25, 72 S.Ct. 654. Ray supports the State’s position
that nothing in the plain language of either
constitutional provision prohibits a state from
imposing certain conditions on electors as a part of the
state’s appointment powers, including requiring
electors to pledge their votes.

17a
¶29 In McPherson, the Court recognized that
“the appointment and mode of appointment of electors
belong exclusively to the States under the Constitution
of the United States.” 146 U.S. at 35, 13 S.Ct. 3. In that
case, at issue was whether Michigan’s legislature
could require that presidential electors be nominated
by congressional district rather than by popular vote.
Id. at 24-25, 13 S.Ct. 3. The Court upheld the
legislation stating:
If the legislature possesses plenary authority to
direct the manner of appointment, and might
itself exercise the appointing power by joint
ballot or concurrence of the two houses, or
according to such mode as designated, it is
difficult to perceive why, if the legislature
prescribes as a method of appointment choice by
vote, it must necessarily be by general ticket,
and not by districts.
Id. at 25, 13 S.Ct. 3. The Court noted that the State
“acts individually through its electoral college [and] by
reason of the power of its legislature over the manner
of appointment, the vote of its electors may be
divided.” Id. at 27, 13 S.Ct. 3. The Constitution does
not provide how electors shall be appointed, leaving it
exclusively to the legislature to define the method of
appointment. Id.
¶30 Also relying on Burroughs, the State argues
that although the electors perform a federal function,
that Court also noted that the State has exclusive
power in appointing electors and the manner in which
their appointment shall be made. See 290 U.S. at 54445, 54 S.Ct. 287. As discussed in Burroughs, the only
power left to Congress is “ ‘the time of choosing the
electors, and the day on which they shall give their

18a
votes.” ’ Id. at 544, 54 S. Ct. 287 (quoting U.S. Const.
art. II, § 1). Moreover, in In re Green, the Court stated
the “electors for President and Vice President in each
State are appointed by the State in such manner as its
legislature may direct.” 134 U.S. 377, 379, 10 S. Ct.
586, 33 L.Ed. 951 (1890). “The sole function of the
presidential electors is to cast, certify and transmit the
vote of the State for President and Vice President of
the nation.” Id. (emphasis added).
¶31 The State has the better argument. In each
case cited by appellants, the authority that
purportedly interfered with the federal function lay
not in the states, but rather in Congress. Thus, the
threshold issue was whether the State had been given
authority to engage in activity that was specifically
conferred to the federal government. For example, in
McCulloch, the issue was whether a state had the
authority to tax a national bank. The Court essentially
held that states were not granted the authority to
regulate national corporations. A national corporation
is a creation unique to the federal government under
the necessary and proper clause to carry out one of
Congress’s enumerated powers. The Constitution does
not confer any authority on the states to interfere or
control that manner.
¶32 Similarly, in Hawke and Leser, the Court
reasoned that the Constitution does not grant to the
people of the states the authority to interfere with the
ratification of constitutional amendments. Instead,
that power was specifically conferred to the
legislatures of the states to ratify. That same
reasoning was followed by this court in Dirt &
Aggregate where we held there was no explicit grant of
authority by Congress for the states to regulate in

19a
federal parks. Contrast this with Goodyear Atomic
where Congress explicitly granted the states authority
to enforce their own workers’ safety regulations in
conjunction with the federal workers’ compensation
statutes.
¶33 Unlike the cases appellants rely on for
support that states cannot interfere with a federal
function, here, the Constitution explicitly confers
broad authority on the states to dictate the manner
and mode of appointing presidential electors. Indeed,
Ray undermines the position of appellants because, as
noted, the Court there upheld the state’s pledge
requirement as constitutional. While appellants argue
that Ray is limited to the primary election, the Court’s
holding clearly demonstrates the broad grant of
authority to the states under article II, section 1.
Burroughs and McPherson also reinforce the principle
that the manner of appointment is exclusive to the
states. As the Court in In re Green explained, the role
of the elector is to “transmit the vote of the State for
President,” suggesting that the Electoral College vote
belongs to the State, not the individual elector. 134
U.S. at 379, 10 S.Ct. 586.
¶34 Finally, nothing in article II, section 1
suggests that electors have discretion to cast their
votes without limitation or restriction by the state
legislature. To the extent that the federal functions of
the electors are mentioned in the Constitution, they
are found in the Twelfth Amendment. The Twelfth
Amendment simply requires the electors to meet at the
specified date and time outlined by Congress and to
cast two votes for qualified candidates—one for
president and one for vice-president. The Constitution
does not limit a state’s authority in adding

20a
requirements to presidential electors, indeed, it gives
to the states absolute authority in the manner of
appointing electors. Thus, it is within a state’s
authority under article II, section 1 to impose a fine on
electors for failing to uphold their pledge, and that fine
does not interfere with any federal function outlined in
the Twelfth Amendment.
Elector Discretion
¶35 Auxiliary to the federal function argument
above, appellants argue that electors were intended to
exercise discretion when casting votes in the Electoral
College.7 “[I]t was supposed that the electors would
exercise a reasonable independence and fair judgment
in the selection of the Chief Executive.” McPherson,
146 U.S. at 36, 13 S.Ct. 3. Appellants cite to a few cases
as persuasive. See Op. of Justices, 250 Ala. 399, 400,
34 So. 2d 598 (1948) (proposed amendment to statute
that required electors to “cast their ballots for the
nominee of the national convention of the party by
which they were elected” was likely unconstitutional);
Breidenthal v. Edwards, 57 Kan. 332, 46 P. 469 (1896)
(candidate has no right to dictate how his name is to
be placed on the electoral ticket); Order of U.S. Court
of Appeals, Baca v. Hickenlooper, No. 16-1482, 2016
U.S. App. LEXIS 23391 (10th Cir. Dec. 16, 2016)
(denying motion for injunction because plaintiffs failed
7 Appellants argue Hamilton’s Federalist Papers supports
the framers intended the electors to exercise discretion as they
would have the “ ‘information and discernment’ necessary to
choose a wise President.” Br. of Appellants at 16 (quoting The
Federalist No. 68 (Alexander Hamilton)); see supra p. 6.

21a
to show they had a likelihood of successfully
appealing). These cases, appellants argue, support
their position that state legislatures are without
authority to “ ‘restrict the right [to vote] of a duly
elected elector.’ ” Br. of Appellants at 19-20 (alteration
in original) (quoting Op. of Justices, 250 Ala. at 401, 34
So.2d 598).
¶36 We find these cases inapt. The Opinion of
Justices was an advisory opinion that speculated on
the constitutionality of a proposed amendment before
it was enacted. More importantly, it was published
prior to Ray, which overturned that court’s decision, in
part, based on similar rationale to Opinion of Justices.
As to Breidenthal, appellants rely on one sentence that
was not dispositive. In Baca, the plaintiffs filed for a
preliminary injunction to prevent the secretary of
state from removing them as presidential electors. But
the court denied their motion, holding they failed to
show there was a likelihood the plaintiffs would
succeed on the merits. Appellants urge that Baca is
instructive where the court, in dictum, noted the State
of Colorado would be unlikely to remove a presidential
elector after voting had begun both because the
Colorado statute provided only for filling vacancies
prior to the start of voting and “ ‘in light of the text of
the Twelfth Amendment.’ ” Br. Of Appellants at 20
(quoting Baca, 2016 U.S. App. LEXIS 23391, at * 16
n.4). We find other language in the court’s opinion far
more relevant. Significant here, the court pointed out
that the electors had failed “to point to a single word
in any [constitutional provision] that support their
position that the Constitution requires that electors be
allowed to exercise their discretion in choosing who to
cast their votes for.” Order at 10.

22a
¶37 Appellants also argue a fine impermissibly
adds new requirements that do not appear in the
Constitution. They argue the only requirements to be
nominated as an elector are that they cannot be a
senator, representative, or other person holding an
office of profit or trust; they must vote for at least one
person who is not an inhabitant of the same state with
themselves; and the person must be eligible for the
office of president. See Br. of Appellants at 21-22.
Appellants cite two cases that they argue support their
contention. In U.S. Term Limits, Inc. v. Thornton, the
issue was a state’s proposed amendment that would
prevent eligible candidates from appearing on the
ballot if they have served more than three terms as a
representative or two terms as a senator. 514 U.S. 779,
783, 115 S. Ct. 1842, 131 L.Ed.2d 881 (1995) (term
limits for federal officers). The Court there rejected the
proposed amendment, holding that the states lack
power to add qualifications. Id. at 805, 115 S. Ct. 1842.
In Powell v. McCormack, the Court held that Congress
did not have the authority to exclude members-elect
after they were duly elected by the people. 395 U.S.
486, 547-48, 89 S. Ct. 1944, 23 L.Ed.2d 491 (1969).
These cases offer little support for appellants’ position.
U.S. Term Limits rests on explicit language in article
I, section 2 that is not present here, and Powell is a
limit on congressional, not state, authority. We
acknowledge that some framers had intended the
Electoral College electors to exercise independent
judgment, but the Court in Ray reflects the historic
reality. As the Court noted, “The suggestion that in the
early elections candidates for electors . . . would have
hesitated, because of constitutional limitations, to
pledge themselves to support party nominees in the

23a
event of their selection as electors is impossible to
accept.” Ray, 343 U.S. at 228, 72 S.Ct. 654. While “[i]t
is true that the Amendment says the electors shall
vote by ballot,” “it is also true that the Amendment
does not prohibit an elector’s announcing his choice
beforehand, pledging himself.” Id. Even if read as
narrowly as appellants urge, Ray’s holding rests on a
rejection of appellants’ position that the Twelfth
Amendment
demands
absolute
freedom
for
presidential electors.8
We also note that appellants and amici argue elector
discretion is required by the language of the Constitution. They
argue the phrase “by Ballot” means a “personal, secret ballot.” Br.
of Appellants at 16; see also Br. for Amicus Curiae Independence
Inst. at 3-5. While it is plausible that the framers meant for the
electors to cast their ballots “in secret,” it is equally plausible the
framers used the word “ballot” to describe a device used to record
the electors’ votes. See BLACK’S LAW DICTIONARY 171 (10th ed.
2014) (“An instrument ... used for casting a vote.”) Indeed, the
names of every presidential elector is on a state’s certificate of
ascertainment submitted to Congress. See 3 U.S.C. § 5. Moreover,
we know how Washington State’s presidential electors
individually voted for president and vice-president in the 2016
election. See Natalie Brand, Washington State Electors Vote for
Clinton, Powell, Faith Spotted Eagle, KING5 NEWS (Dec. 20, 2016,
6:22
AM),
https://www.king5.com/article/news/politics/washington-stateelectors-vote-for-clinton-powell-faith-spotted-eagle/281373558515; Liza Javier, PresidentialBallots, KING5 NEWS,
https://www.documentcloud.org/documents/3243191PresidentBallots.html; Liza Javier, VicePresidentBallots, KING5
NEWS,
https://www.documentcloud.org/documents/3243190VicePresidentBallots.html.
A number of “faithless electors” have surfaced in prior
elections. See, e.g., Subcomm. on Constitutional Amendments of
Comm. on the Judiciary, 87th Cong., The Electoral College,
Operation and Effect of Proposed Amendments to the Constitution
of the United States 9 (Comm. Print 1961) (Henry D. Irwin of
8

24a
¶38 We believe that Ray disposes of this
question.9 The Twelfth Amendment does not demand
absolute freedom of choice for electors. In the same
way that the Twelfth Amendment does not prevent an
elector from pledging himself, it does not prevent a
state from requiring its electors pledge to vote for its
party candidate.
First Amendment
¶39 Finally, appellants argue that imposing a
fine violates their First Amendment right to vote. In
support, appellants argue that voting is an expressive
act and is protected from any viewpoint-based
restrictive state action. Br. of Appellants at 28.
Appellants argue their votes are a personal choice and
the State must honor that choice. See id. at 29-30.

Oklahoma defected and voted for Senator Harry F. Byrd instead
of Richard Nixon); Note, State Power To Bind Presidential
Electors, 65 COLUM. L. REV. 696 (1965). We know of “faithless
electors” also appearing in our nation’s early elections. See Note,
supra, at 701 nn.40-41 (In 1796, Federalist Elector Samuel Miles
voted for the antifederalist candidates, Jefferson and Pinckney.
In 1820, New Hampshire elector William Plumer voted for John
Quincy Adams instead of James Monroe.). The fact that “faithless
electors” have been identified throughout our nation’s history
suggests “ballot” simply means “to record a vote,” rather than to
vote in secret.
9 Appellants say that Ray is not controlling here because
the Court did not address enforceability of the pledge
requirement. They argue there is a distinction between moral
authority and legal enforceability. See Reply Br. of Appellants at
15-16. But Ray does make clear that the State may impose
obligations such as a pledge and thus rejects unfettered elector
discretion.

25a
¶40 Appellants rely on Miller v. Town of Hull,
878 F.2d 523 (1st Cir. 1989). In that case, a municipal
governing board removed members of a public agency
for failing to vote in a way the members of the board
preferred. Id. at 527. The court held removal was
unconstitutional because “the act of voting on public
issues by a member of a public agency or board comes
within the freedom of speech guarantee of the first
amendment. This is especially true when the agency
members are elected officials.” Id. at 532. “The entire
course of conduct by the defendants supports the
conclusion that the plaintiffs were suspended because
of the position they took as . . . members with respect
to the housing project . . . . This was a violation of their
first amendment rights.” Id. at 533.
¶41 The State, on the other hand, relies on
Nevada Commission on Ethics v. Carrigan, arguing
that the case supports the imposition of the fine here.
564 U.S. 117, 119, 131 S. Ct. 2343, 180 L.Ed.2d 150
(2011). There, the appellee was under investigation for
violating the State’s recusal rules by voting to approve
an application for a development project that his
longtime friend and campaign manager worked on. Id.
at 120, 131 S. Ct. 2343. The commission had concluded
that he had a conflict of interest, and the appellee
appealed, arguing the law was unconstitutional under
the First Amendment. Id. at 120-21, 131 S. Ct. 2343.
The Supreme Court reversed the Nevada Supreme
Court’s holding that the recusal rules violate the First
Amendment. In doing so, the Court held that “a
legislator’s vote is the commitment of his apportioned
share of the legislature’s power to the passage or
defeat of a particular proposal. The legislative power
thus committed is not personal to the legislator but

26a
belongs to the people; the legislator has no personal
right to it.” Id. at 125-26, 131 S. Ct. 2343.
¶42 Nevada Commission is analogous here
because electors act by authority of the State. See Ray,
343 U.S. at 224-25, 72 S.Ct. 654. It is the “sole function
of the presidential electors . . . to cast, certify and
transmit the vote of the State for President and Vice
President of the nation.” In re Green, 134 U.S. at 379,
10 S.Ct. 586. In essence, the electors are carrying out
a state government duty. See Garcetti v. Ceballos, 547
U.S. 410, 126 S. Ct. 1951, 164 L.Ed.2d 689 (2006)
(speech made in the course of a government duty is not
protected by the First Amendment). Indeed, we note
the federal district court recently engaged in a similar
analysis of an elector’s First Amendment rights. See
Chiafalo v. Inslee, 224 F. Supp. 3d 1140, 1145 (W.D.
Wash. 2016).10 There, the court rejected the plaintiff’s
First Amendment argument on similar grounds,
recognizing that the “[r]elevant legal authority
characterizes electors’ role as ‘ministerial’ [and] limits
the context in which the First Amendment protects
individuals performing their official, governmental
duties.” Id. (citation omitted) (discussing Thomas v.
Cohen, 146 Misc. 836, 262 N.Y.S. 320, 326 (Sup. Ct.
1933), and Garcetti, 547 U.S. at 421-22, 126 S.Ct.
1951).
¶43 The power of electors to vote comes from the
State, and the elector has no personal right to that
role. The “[appellants] chose to stand for nomination
10 Some of the appellants filed for preliminary injunction
in federal court prior to the State assessing the fine complained
of here. Judge James Robart denied their preliminary injunction,
rejecting nearly identical arguments the appellants make before
us.

27a
as an elector for their party, subject to the rules and
limitations that attend the position. They also retain
the ability to step down as electors without penalty.”
Id. (citations omitted). “[I]t is unlikely that casting
electoral ballots implicates [appellants’] First
Amendment rights.” Id.
¶44 We hold the First Amendment is not
implicated when an elector casts a vote on behalf of the
State in the Electoral College.
CONCLUSION
¶45 Article II, section 1 of the United States
Constitution grants to the states plenary power to
direct the manner and mode of appointment of electors
to the Electoral College. We hold that the fine imposed
pursuant to RCW 29A.56.340 falls within that
authority. We further hold nothing under article II,
section 1 or the Twelfth Amendment to the
Constitution grants to the electors absolute discretion
in casting their votes and the fine does not interfere
with a federal function. Finally, an elector acts under
the authority of the State, and no First Amendment
right is violated when a state imposes a fine based on
an elector’s violation of his pledge. We affirm the trial
court.
WE CONCUR:
Fairhurst, C.J.
Johnson, J.
Owens, J.
Stephens, J.
Wiggins, J.
Gordon McCloud, J.
Yu, J.

28a
GONZÁLEZ, J. (dissenting)
¶46 In 1976, Michael J. Padden, a Washington
elector, voted for Ronald Reagan even though the
Republican Party nominated Gerald Ford.1 The
following year, the legislature enacted a law requiring
electors to vote for the candidates nominated by their
political party or face a civil penalty of up to $ 1000.
Laws of 1977, 1st Ex. Sess., ch. 238, §§ 1-2. In 2016, the
electors before us did not vote for the candidates
nominated by their party. We must decide if the State
has the constitutional authority to impose a civil
penalty on them. The majority upholds imposition of
the civil penalty. I respectfully dissent.
¶47 The State’s authority to penalize its electors
is an issue of first impression. Ray v. Blair concerns
only the broad authority to appoint electors. 343 U.S.
214, 227, 72 S. Ct. 654, 96 L.Ed. 894 (1952) (“It is an
exercise of the state’s right to appoint electors in such
manner, subject to possible constitutional limitations,
as it may choose.” (citing U.S. Const. art. II, § 1)). The
Court addressed the constitutionality of requiring
electors to make a pledge but did not address the
elector’s discretion. Id. at 228, 72 S. Ct. 654. In dissent,
Justice Robert H. Jackson raised concerns about an
elector’s freedom to exercise independent judgment as
originally intended. I share his concerns. He opined,
“No one faithful to our history can deny that the plan
originally contemplated, what is implicit in its text,
that electors would be free agents, to exercise an
independent and nonpartisan judgment as to the
1 Official Ballot for the Position of President (Dec. 13,
1976) (on file with Wash. State Archives, Electoral College and
Federal Election Certifications, 1948-2012).

29a
[individuals] best qualified for the Nation’s highest
offices.” Id. at 232, 72 S. Ct. 654 (Jackson, J.,
dissenting) (citing The Federalist No. 68 (Alexander
Hamilton)).
¶48 There is a meaningful difference between
the power to appoint and the power to control. “A
power not expressly listed [in the Constitution] is
granted only if incidental to an enumerated power.”
Br. for Amicus Curiae Independence Inst. at 8 (citing
McCulloch v. Maryland, 17 U.S. (4 Wheat.) 316, 405, 4
L.Ed. 579 (1819)). The Constitution provides the State
only with the power to appoint, leaving the electors
with the discretion to vote their conscience. See U.S.
Const. art. II, § 1. Therefore, the State cannot impose
a civil penalty on electors who do not vote for the
candidates nominated by their party. I respectfully
dissent.

30a
APPENDIX B
Trial Court Oral Decision
(Excerpted from full hearing transcript)
IN THE SUPERIOR COURT OF THE STATE OF
WASHINGTON IN AND FOR THE COUNTY OF
THURSTON
In the matter of:
) THURSTON
LEVI GUERRA, ESTER V. JOHN, ) COUNTY
and PETER B. CHIAFALO
) CAUSE NO.
) 17-2-02446-34
Appellants. )
) SUPREME
) COURT
) CAUSE NO.
) 953473
_________________________________________________
VERBATIM REPORT OF PROCEEDINGS
_________________________________________________
BE IT REMEMBERED that on December 8,
2017, the above-entitled matter came on for hearing
before the Honorable CAROL MURPHY, Judge of
Thurston County Superior Court.

31a
***
[Tr. 47] The Court is prepared at this time to
issue a ruling in this case. This administrative appeal
presents a constitutional challenge to the assessment
of civil penalties against the petitioners under RCW
29A.56.340, because the petitioners, presidential
Electors who signed pledges, did not vote consistent
[Tr. 48] with their pledges.
An administrative hearing was held, and the
Findings of Fact are not contested. The petitioners
raised a constitutional argument at the hearing, but
that could not be addressed by the Administrative Law
Judge. The action of the Secretary of State in imposing
$1,000 fines against each of the petitioners was
affirmed at the administrative hearing.
The petitioners appealed to this court
challenging the constitutionality of RCW 29A.56.340
as applied to each of them based upon the First and
Twelfth Amendments to the United States
Constitution. At this judicial review, the burden is on
the petitioners to show that the statute is
unconstitutional. Statutes are presumed to be
constitutional.
The parties agree that, under Article II § 1 of
the United States Constitution, states have plenary
power over the appointment of presidential Electors.
States may appoint Electors in the manner that they
choose. The parties agree that the state may set
requirements, including the pledge here, in its
appointment of Electors.
Although the statute at issue does not require
Electors to cast their ballots in a certain way, it [Tr.
49] does allow for the imposition of a fine, which was

32a
applied in the case of each of the petitioners, if the
Electors cast ballots contrary to their pledge.
Consistent with the holding of Ray v. Blair,
states may authorize a political party to choose its
nominees for Elector, and permissible Elector
qualifications include a pledge to vote for the party’s
nominee. The enforcement of such a pledge in the form
of a fine is the issue before the Court today.
This Court concludes that the petitioners have
not met their burden to show that the statute is
unconstitutional as applied in this context. After
reviewing the authorities cited by the parties, the
Court concludes that RCW 29A.56.340 does not
infringe upon the constitutional rights of the
petitioners. The State is not adding a qualification,
nor is the State here requiring specific performance of
the pledge. This Court, therefore, concludes that this
statutory regulation is constitutionally permissible.
The Court will sign an order prepared by the
parties . . .
***

33a
APPENDIX C
Trial Court Order
STATE OF WASHINGTON
THURSTON COUNTY SUPERIOR COURT
In the matter of:
)
LEVI GUERRA, ESTER V. JOHN, )
and PETER B. CHIAFALO
) NO.
) 17-2-02446-34
Petitioners. )
) ORDER ON
) PETITION
) FOR REVIEW
)
_________________________________________________
THIS MATTER came for hearing on December
8, 2017. Counsel of record appeared on behalf of the
petitioners, and on behalf of Respondent Washington
Secretary of State Kim Wyman. The Court considered
the Petitioners’ Petition for Review, the arguments of
counsel, and the following:
1. Administrative Record;
2. Petitioners’ Opening Brief;
3. Respondent’s Brief; and
4. Petitioners’ Reply Brief.
NOW, THEREFORE, having considered the
Petition, the arguments of counsel, and the papers,

34a
records, and files in this matter, the Court hereby
ORDERS:
The Petition for Review is DENIED. Petitioners
have not met their burden of showing that RCW
29A.56.340 is unconstitutional. Enforcement of the
statute is within the State’s constitutional powers
under article II, section 1 and neither the statute nor
its enforcement violates the First and Twelfth
Amendments of the United States Constitution. Each
of the Petitioners’ Notices of Violation are
AFFIRMED.
DONE IN OPEN COURT this 8th day of
December 2017.
Carol Murphy
The Honorable Carol Murphy
Superior Court Judge
Presented by:
ROBERT W. FERGUSON
Attorney General
CALLIE A. CASTILLO, WSBA 38214
REBECCA R. GLASGOW, WSBA 32886
Deputy Solicitors General
PO Box 40100
Olympia, WA 98504-0100
360-664-0869
Callie.Castillo@atg.wa.gov
Rebecca.Glasgow@atg.wa.gov

35a
Approved as to Form,
Notice of Presentation Waived
JONAH O. HARRISON, WSBA 24576
SUMEER SINGLA, WSBA 32852
Impact Law Group PLLC
1325 Fourth Avenue,
Suite 1400 Seattle, WA 98101
T: (206) 792-5230
F: (206) 452-0655
jonah@impactlawgroup.com
sumeer@impactlawgroup.com

36a
APPENDIX D
Administrative Order Imposing fines
WASHINGTON STATE
OFFICE OF ADMINISTRATIVE HEARINGS
In the matters of:

)Docket Nos.
) 010421;
Levi Guerra, Esther V. John, and ) 010422;
Peter B. Chiafolo
) 010424
) INITIAL
___________________Appellants.____ ) ORDER
1.

ISSUES
1.1. Did the Secretary of State properly assess
civil penalties against the appellant electors
under RCW 29A.56.340 because they voted for a
person other than their party's nominee?
1.2. If so, what is the appropriate penalty?

2.

ORDER SUMMARY
2.1. The Secretary
AFFIRMED.

of

State's

action

is

2.2. Levi Guerra shall pay a $1,000 civil penalty.
2.3. Esther V. John shall pay a $1,000 civil
penalty.

37a
2.4. Peter B. Chiafolo shall pay a $1,000 civil
penalty.
3.

HEARING
3.1. Hearing Date: March 3, 2017
3.2.Administrative Law Judge: Robert C Krabill
3.3. Appellants: Levi J. Guerra, Esther V. John,
and Peter B. Chiafolo
3.3.1. Representative: Sumeer Singla appeared
and represented all three appellants.
3.3.2. Appearances: Of the appellants, only Mr.
Chiafolo appeared in person.
3.4. Agency: Secretary of State
3.4.1. Representatives: Callie Castillo, AAG and
Rebecca Glasgow, AAG
3.5. Stipulated Facts: The parties stipulated to
the facts alleged in each appellant's Notice of
Violation.1

4.

FINDINGS OF FACT

I find the following facts by a preponderance of the
evidence:
Jurisdiction

1

Stipulated Facts, February 17, 2017.

38a
4.1. On December 29, 2016, the Secretary of State's
Office issued a Notice of Violation to Levi
Guerra.2 The Notice alleged that Ms. Guerra
violated RCW 29A.04.230 when she voted Colin
Powell for President and Maria Cantwell for Vice
President. On that basis, it assessed a civil
penalty of $1,000 against her. Ms. Guerra filed a
timely request for hearing on January 19, 2017.3
4.2. On December 29, 2016, the Secretary of State's
Office issued a Notice of Violation to Esther V.
John.4 The Notice alleged that Ms. John violated
RCW 29A.04.230 when she voted Colin Powell for
President and Susan Collins for Vice President.
On that basis, it assessed a civil penalty of $1,000
against her. Ms. John filed a timely request for
hearing on January 19, 2017.5
4.3. On December 29, 2016, the Secretary of State’s
Office issued a Notice of Violation to Peter B.
Chiafolo.6 The Notice alleged that Mr. Chiafolo
violated RCW 29A.04.230 when he voted Colin
Powell for President and Elizabeth Warren for
Vice President. On that basis, it assessed a civil
penalty of $1,000 against him. Mr. Chiafolo filed
a timely request for hearing on January 19,
2017.7
Guerra Notice of Violation, December 29, 2016.
Guerra Request for Hearing, January 16, 2017.
4 Guerra Request for Hearing, January 16, 2017.
5 John Request for Hearing, January 19, 2017.
6 Chiafolo Notice of Violation, December 29, 2016.
7 Chiafolo Request for Hearing, January 19, 2017.
2
3

39a
Selection as Electors
4.4. The Washington State Democratic Party selected
twelve Presidential electors that included Ms.
Guerra, Ms. John, and Mr. Chiafolo. On August
4, 2016, the Democratic Party certified a slate of
electors including all three appellants to the
Secretary of State's Office.
4.5 On August 8, 2016, Ms. Guerra signed the pledge,
“I will vote for the candidates nominated by the
Democratic Party for President of the United
States and Vice President of the United States.”
On August 2, 2016, Ms. John signed the same
pledge. And, on August 3, 2016, Mr. Chiafolo
signed the same pledge. The Washington State
Democratic Party submitted copies of those
pledges to the Secretary of State's Office on
August 9, 2016.
4.6. On November 8, 2016, the Democratic Party
nominees for President, Hillary R. Clinton, and
Vice President, Tim Kaine, won the popular vote
Actions as Electors
4.7 On December 19, 2016, the Secretary of State
convened Washington State’s electoral college in
Olympia. Rather than vote for the Democratic
party’s nominees, the three appellants voted as
follows:

40a

4.8 The Secretary of State submitted their votes to the
President of the United States Senate as cast.8
5.

CONCLUSIONS OF LAW

Jurisdiction
5.1 I have jurisdiction to decide this matter under
RCW 34.05.413 and chapter 34.12 RCW.
Liability for Civil Penalties
5.2 Under RCW 29A.45.340, the Secretary of State
may assess a civil penalty up to $1,000 against
any elector “who votes for a person or persons not
nominated by the party of which he or she is an
elector”. Here, all three appellants were electors
of the Washington State Democratic Party. The
Democratic Party nominated Hillary R. Clinton
for President and Tim Kaine for Vice-President.
Because the appellants each cast their electoral
votes for persons other than those their party
nominated, the Secretary of State could assess a
civil penalty of $1,000 against each of them under
RCW 29A.56.340.

8 Certificate of the Washington Electoral College Vote,
December 19, 2016.

41a
5.3 The Secretary of State did assess $1,000 civil
penalties against each appellant under RCW
29A.56.340. Those civil penalties lay within her
discretion, so they are proper in these cases.
Constitutionality of Civil Penalties
5.4 The Secretary of State and the appellants agree
the U.S. Constitution delegates to Washington the
power to determine the method of selecting its
electors. They also agree that power includes the
authority to require electors to sign a pledge
committing to vote for their party’s nominees.9
5.5 Washington does not prevent electors from voting
contrary to their pledges. It does not unseat
electors who attempt to vote contrary to
their pledges, and it has not criminalized electors
voting contrary to their pledges. The Secretary of
State argues that the Constitution does delegate
that power to Washington the same as the power
to demand a pledge.
5.6 The appellants argue that the Constitution does
not delegate to Washington the power to punish
electors for voting contrary to their pledges.
Without that power, Washington could not punish
them. The Secretary of State argues that the
Constitution does delegate that power to
9 Ray v. Blair, 343 U.S. 214 (1952). A political party may
require candidates for elector to pledge their electoral votes to the
party’s national nominees for President and Vice President
without violating the Twelfth Amendment to the U.S.
Constitution.

42a
Washington the same as the power to demand a
pledge.
5.7 An executive branch agency cannot negate a law
that the Legislature has entrusted it to
administer by finding it unconstitutional.10 “Only
courts have that power.”11 Here, the Legislature
has entrusted the Secretary of State to administer
RCW 29A.56.340. Therefore, the Secretary of
State cannot negate it as unconstitutional. The
Secretary of State has delegated authority to
determine this case to the Office of Administrative
Hearings
and
through
the
Office
of
Administrative Hearings to me. My authority
extends no farther than the Secretary of State’s.
Because the Secretary of State cannot negate
RCW 29A.56.340 as unconstitutional, neither can
I.
So, I decline to find RCW 29A.56.340
unconstitutional.
5.8 The appellants have raised a Constitutional
defense. They are free to make that record in the
administrative hearing process, and they did.
They can raise that defense on appeal in court.
6.

INITIAL ORDER

6.1 The Secretary of State action is AFFIRMED.
6.2 Levi Guerra shall pay a $1000 civil penalty.

10
11

Cf. Bare v. Gorton, 84 Wn.2d 380, 383 (1974).
Id.

43a
6.3 Esther V. John shall pay a $1000 civil penalty.
6.4 Peter B. Chiafolo shall pay a $1,000 civil penalty.
Issued from Tacoma, Washington on the date of
mailing.
Robert C. Krabill
Administrative Law Judge
Office of Administrative Hearings

44a
APPENDIX E
Electors in Article II of Constitution
U.S. CONST. art. II, § 1, cl. 2
Each State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors,
equal to the whole Number of Senators and
Representatives to which the State may be entitled in
the Congress: but no Senator or Representative, or
Person holding an Office of Trust or Profit under the
United States, shall be appointed an Elector.
U.S. CONST. art. II, § 1, cl. 3
The Electors shall meet in their respective States, and
vote by Ballot for two Persons, of whom one at least
shall not be an Inhabitant of the same State with
themselves. And they shall make a List of all the
Persons voted for, and of the Number of Votes for each;
which List they shall sign and certify, and transmit
sealed to the Seat of the Government of the United
States, directed to the President of the Senate. The
President of the Senate shall, in the presence of the
Senate and House of Representatives, open all the
Certificates, and the Votes shall then be counted. The
Person having the greatest Number of Votes shall be
the President, if such Number be a Majority of the
whole Number of Electors appointed; and if there be
more than one who have such Majority, and have an
equal Number of Votes, then the House of
Representatives shall immediately chuse by Ballot one
of them for President; and if no Person have a

45a
Majority, then from the five highest on the List the
said House shall in like manner chuse the President.
But in chusing the President, the Votes shall be taken
by States, the Representation from each State having
one Vote; A quorum for this Purpose shall consist of a
Member or Members from two thirds of the States, and
a Majority of all the States shall be necessary to a
Choice. In every Case, after the Choice of the
President, the Person having the greatest Number of
Votes of the Electors shall be the Vice President. But
if there should remain two or more who have equal
Votes, the Senate shall chuse from them by Ballot the
Vice President.
U.S. CONST. art. II, § 1, cl. 4
The Congress may determine the Time of chusing the
Electors, and the Day on which they shall give their
Votes; which Day shall be the same throughout the
United States.

46a
Supremacy Clause
U.S. CONST. art. VI, cl. 2
This Constitution, and the Laws of the United States
which shall be made in Pursuance thereof; and all
Treaties made, or which shall be made, under the
Authority of the United States, shall be the supreme
Law of the Land; and the Judges in every State shall
be bound thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.

47a
First Amendment
U.S. CONST. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of peaceably
to assemble, and to petition the Government for a
redress of grievances.

48a
Tenth Amendment
U.S. CONST. amend. X
The powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are
reserved to the States respectively, or to the people.

49a
Twelfth Amendment
U.S. CONST. amend. XII

The Electors shall meet in their respective states,
and vote by ballot for President and VicePresident, one of whom, at least, shall not be an
inhabitant of the same state with themselves; they
shall name in their ballots the person voted for as
President, and in distinct ballots the person voted
for as Vice-President, and they shall make distinct
lists of all persons voted for as President, and of
all persons voted for as Vice-President, and of the
number of votes for each, which lists they shall
sign and certify, and transmit sealed to the seat of
the government of the United States, directed to
the President of the Senate;–The President of the
Senate shall, in the presence of the Senate and
House of Representatives, open all the certificates
and the votes shall then be counted;–The person
having the greatest number of votes for President,
shall be the President, if such number be a
majority of the whole number of Electors
appointed; and if no person have such majority,
then from the persons having the highest numbers
not exceeding three on the list of those voted for as
President, the House of Representatives shall
choose immediately, by ballot, the President. But
in choosing the President, the votes shall be taken
by states, the representation from each state
having one vote; a quorum for this purpose shall
consist of a member or members from two-thirds

50a

of the states, and a majority of all the states shall
be necessary to a choice. And if the House of
Representatives shall not choose a President
whenever the right of choice shall devolve upon
them, before the fourth day of March next
following, then the Vice-President shall act as
President, as in the case of the death or other
constitutional disability of the President.–The
person having the greatest number of votes as
Vice-President, shall be the Vice-President, if such
number be a majority of the whole number of
Electors appointed, and if no person have a
majority, then from the two highest numbers on
the list, the Senate shall choose the VicePresident; a quorum for the purpose shall consist
of two-thirds of the whole number of Senators, and
a majority of the whole number shall be necessary
to a choice. But no person constitutionally
ineligible to the office of President shall be eligible
to that of Vice-President of the United States.

51a
APPENDIX F
RCW 29A.56.300 (2016)
PRESIDENTIAL ELECTORS
29A.56.310 Date of election—Number. On the
Tuesday after the first Monday of November in the
year in which a president of the United States is to be
elected, there shall be elected as many electors of
president and vice president of the United States as
there are senators and representatives in Congress
allotted to this state.
29A.56.320 Nomination—Pledge by electors—
What names on ballots—How counted. In the year
in which a presidential election is held, each major
political party and each minor political party or
independent candidate convention that nominates
candidates for president and vice president of the
United States shall nominate presidential electors for
this state. The party or convention shall file with the
secretary of state a certificate signed by the presiding
officer of the convention at which the presidential
electors were chosen, listing the names and addresses
of the presidential electors. Each presidential elector
shall execute and file with the secretary of state a
pledge that, as an elector, he or she will vote for the
candidates nominated by that party. The names of
presidential electors shall not appear on the ballots.
The votes cast for candidates for president and vice
president of each political party shall be counted for
the candidates for presidential electors of that political
party; however, if the interstate compact entitled the

52a
"agreement among the states to elect the president by
national popular vote," as set forth in RCW
29A.56.300, governs the appointment of the
presidential electors for a presidential election as
provided in clause 9 of Article III of that compact, then
the final appointment of presidential electors for that
presidential election shall be in accordance with that
compact.
29A.56.330 Counting and canvassing the returns.
The votes for candidates for president and vice
president must be canvassed under chapter 29A.60
RCW. The secretary of state shall prepare three lists
of names of electors elected and affix the seal of the
state. The lists must be signed by the governor and
secretary of state and by the latter delivered to the
college of electors at the hour of their meeting.
29A.56.340 Meeting—Time—Procedure—Voting
for nominee of other party, penalty. The electors
of the president and vice president shall convene at the
seat of government on the day fixed by federal statute,
at the hour of twelve o'clock noon of that day. If there
is any vacancy in the office of an elector occasioned by
death, refusal to act, neglect to attend, or otherwise,
the electors present shall immediately proceed to fill it
by voice vote, and plurality of votes. When all of the
electors have appeared and the vacancies have been
filled they shall constitute the college of electors of the
state of Washington, and shall proceed to perform the
duties required of them by the Constitution and laws
of the United States. Any elector who votes for a
person or persons not nominated by the party of which

53a
he or she is an elector is subject to a civil penalty of up
to one thousand dollars.
29A.56.350 Compensation. Every presidential
elector who attends at the time and place appointed,
and gives his or her vote for president and vice
president, is entitled to receive from this state a
subsistence allowance and travel expenses pursuant to
RCW 43.03.050 and 43.03.060 for each day's
attendance at the meeting of the college of electors.
29A.56.360 Slate of presidential electors. In a year
in which the president and vice president of the United
States are to be elected, the secretary of state shall
include in the certification prepared under RCW
29A.52.321 the names of all candidates for president
and vice president who, no later than the third
Tuesday of August, have certified a slate of electors to
the secretary of state under RCW 29A.56.320 and have
been nominated either (1) by a major political party,
as certified by the appropriate authority under party
rules, or (2) by a minor party or as independent
candidates. Major or minor political parties or
independent presidential candidates may substitute a
different candidate for vice president for the one whose
name appears on the party's certification or
nominating petition at any time before seventy-five
days before the general election, by certifying the
change to the secretary of state. Substitutions must
not be permitted to delay the printing of either ballots
or a voters' pamphlet. Substitutions are valid only if
submitted under oath and signed by the same
individual who originally certified the nomination, or

54a
his or her documented successor, and only if the
substitute candidate consents in writing.

